<html>
<title> - HEARING ON PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 113-298]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-298
 
                     HEARING ON PENDING NOMINATIONS 

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2013

                               __________

       Printed for the use of the Committee on Veterans' Affairs

         Available via the World Wide Web: http://www.fdsys.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

85-416 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director



                            C O N T E N T S

                              ----------                              

                            November 6, 2013
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......   1,2
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Boozman, Hon. John, U.S. Senator from Arkansas...................     4
Heller, Hon. Dean, U.S. Senator from Nevada......................     5
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    45

                               WITNESSES

Reed, Jon. Jack, U.S. Senator from Rhode Island..................     1
Gibson, Sloan D., MA, MPA, Nominee to be Deputy Secretary of 
  Veterans Affairs, U.S. Department of Veterans Affairs..........     6
    Prepared statement...........................................     8
    Response to prehearing questions submitted by Hon. Bernard 
      Sanders....................................................     9
    Questionnaire for Presidential nominees......................    15
    Letters from the Office of Government Ethics.................    38
    Letter from the Designated Agency Ethics Official, U.S. 
      Department of Veterans Affairs.............................    40
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    41
Schwartz, Linda S., RN, MSN, DrPH, FAAN, Nominee to be Assistant 
  Secretary for Policy and Planning, U.S. Department of Veterans 
  Affairs........................................................    47
    Prepared statement...........................................    49
    Response to posthearing questions submitted by Hon. Bernard 
      Sanders....................................................    51
    Questionnaire for Presidential nominees......................    55
    Letters from the Office of Government Ethics.................    81
    Letter from the Designated Agency Ethics Official, U.S. 
      Department of Veterans Affairs.............................    83
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    85
Tobias, Constance B., JD, Nominee to be Chairman, Board of 
  Veterans' Appeals, U.S. Department of Veterans Affairs.........    87
    Prepared statement...........................................    89
    Response to prehearing questions submitted by Hon. Bernard 
      Sanders....................................................    91
    Questionnaire for Presidential nominees......................    94
    Letter from the Office of Government Ethics..................   104
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   105

                                APPENDIX

Reed, Richard, NSO, Veteran Service Director, Vermont Office of 
  Veterans Affairs; letter.......................................   111
Gillis, Catherine L., Ph.D., RN, FAAN, Dean and Helene Fuld 
  Health Trust Professor of Nursing, Vice Chancellor for Nursing 
  Affairs, Duke University School of Nursing; letter.............   112
Tri-Council for Nursing; letter..................................   114


                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2013

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 418, Russell Senate Office Building, Hon. Bernard Sanders, 
Chairman of the Committee, presiding.
    Present: Senators Sanders, Blumenthal, Burr, Boozman and 
Heller.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. My apologies for being late. We want to 
thank Senator Reed and Mr. Gibson for being here.
    Today we have an important hearing. We are going to be 
discussing some very important VA appointees and we are going 
to get to that in a second.
    Let me begin by thanking Senator Reed for being here; I 
look forward to hearing what you have to say. Senator, it is 
all yours.

                 STATEMENT OF HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman, Senator 
Burr, and all the Members of the Committee.
    I have the great honor and privilege to introduce Sloan 
Gibson, President Obama's nominee to be Deputy Secretary of the 
Department of Veterans Affairs.
    I have known Sloan for many years and know him to be 
someone who is deeply committed to our servicemembers and 
veterans, and to their families. Sloan is joined today by his 
wife Margaret and their daughter Celia; their daughter Laura 
could not be here today but she is certainly here in spirit.
    Sloan has over 30 years of management and leadership 
experience in the private sector, but his career started with 
the ideals of duty, honor, country. Those ideals he upholds 
everyday.
    They were instilled in him as a young cadet at West Point.
    He graduated in the class of 1975. Was commissioned as an 
infantry officer, earned both his airborne and ranger 
qualifications, served as a training development officer at the 
Army Infantry School at Fort Benning, GA. Then after his 
distinguished military service, went on to earn a Master's 
Degree in economics from the University of Missouri and later a 
Master's Degree in public administration from the Kennedy 
School of Government at Harvard.
    Sloan has extensive experience in the banking sector where 
he managed large organizations, oversaw strategic development 
and was held accountable to investors every quarter.
    He currently serves as the president and CEO of the USO, or 
United Service Organizations, an organization that we all know 
has for many decades lifted the spirits of our servicemembers 
in every corner of the globe.
    With his personal commitment and dedicated leadership over 
the last 5 years, Sloan has transformed the USO, expanding its 
global and local presence, broadening its services and 
programming not just for deployed troops but also for wounded 
warriors and their families. He has built enduring partnerships 
with countless nonprofit organizations, the Congress, the 
Department of Defense, and the White House.
    His application of sound business practices has enabled the 
USO to measure the impact of its program by focusing on 
outcomes and effectiveness, not just on the number of 
activities and services provided.
    All of these experiences will enable him to successfully 
assist Secretary Shinseki in leading the Department of 
Veterans' Affairs.
    Mr. Chairman, you know that it is vitally important to have 
leaders at the VA who can effectively run such a large 
organization while understanding the needs of the veterans whom 
they serve.
    In my view, Sloan has the right combination of skills and 
expertise to make him well qualified for his position. I know 
every decision he makes will be made in the context of the 
young men and women who wear the uniform of the United States 
or who have worn the uniform of the United States. It will be 
all about them because he is all about them.
    With that, I would urge his consideration and nomination.
    Thank you, Mr. Chairman.

         CONTINUING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. Well, Senator Reed, thank you very much 
for your work for our military and for VA. We appreciate it.
    Let me make a short statement. Then I will give it over to 
Senator Burr and then we will get to Mr. Gibson.
    In my view as I have stated many times, I think VA does a 
very good job in providing quality, cost-effective health care 
to our veterans. We also know that the VA has a number of 
problems that this Committee is going to continue working hard 
to try to improve.
    Everybody is aware that as we move from a paper to 
paperless claims benefit system, it still takes too long. This 
Committee is going to be working with VA to expedite that 
process to make sure that every veteran gets the benefits he or 
she is entitled to in a reasonable period of time.
    We also know it takes the Board too long to decide appeals. 
We know VA and DOD--and this Committee has discussed this 
endlessly and will continue to stay on this issue--have spent 
years on an integrated electronic health record with very 
little to show for it except maybe spending hundreds of 
millions of dollars and no one is quite sure where that money 
has gone.
    We know that VA has difficulty managing major construction 
projects. They constantly end up with huge cost overruns. We 
want to know why that is.
    We know far too many veterans do not know about the 
benefits and health care for which they are entitled. You and I 
chatted about that. I think VA is now doing a much better job 
in outreach but we still have to move on that issue and others.
    So, the bottom line is you have a huge bureaucracy and a 
very large budget. I think the average veteran in this country 
believes VA is doing a good job, in terms of health care at 
least but we can do better.
    As you know, if confirmed, you will be the second highest-
ranking person at VA. That position has traditionally been VA's 
chief operating officer.
    Mr. Gibson, the individual who fills this position must be 
able to oversee and ensure the optimal functions of and 
seamless collaboration among all of VA's offices, including its 
health care system, benefits program, and national cemeteries. 
That is no small job.
    As you know, this individual has traditionally served as 
the Department's lead in collaborative efforts with DOD, an 
enormous issue, because many of us believe that we are dealing 
with one human being not two separate entities here. So, the 
job that you are applying for is of enormous consequence.
    So, I am going to end there and turn the mic over to 
Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman.
    Mr. Chairman, I want to start by pointing out that I did 
ask for a delay in the hearing for one of the nominees and the 
reason is because we have not yet received documents that the 
Committee has been requesting since last year.
    Now, let me make it perfectly clear. I will need to hold 
another hearing after I receive the information, if I receive 
the information, so that we have an opportunity to ask informed 
questions which I cannot do today.
    Although I am not sure what the impact will be on the 
current slate of nominees, I hope in the future we will proceed 
more deliberately when considering nominations.
    Now, turning to why we are here today: Sloan Gibson is a 
great nominee. As a board member of West Point, he starts off 
with good credentials. He served a distinguished banking career 
in North Carolina--I am not sure why he ever left and went to 
Georgia and Alabama but it was our loss.
    I also want to point out some of the challenges that would 
be faced by anyone assuming a leadership role at the VA. 
Hundreds of thousands of veterans and their families are 
waiting in a backlog of disability claims, and the time it 
takes to resolve an appeal is a major concern.
    VA continues to struggle with the future of the integrated 
electronic health records and modernization of VistA. Several 
recent quality management issues at VA medical facilities 
including misuse of insulin pens, an outbreak of Legionella, 
and delays in patient care have unfortunately resulted in 
patient harm and patient death.
    VA's construction program, as the Chairman pointed, has 
been plagued with problems including delays in building medical 
centers, mismanagement of leases for health care centers, and 
an unclear path forward on how to deal with VA's list of $60 
billion in construction projects.
    Considering the impact that all of these issues and other 
problems at VA can have on veterans, their families, and their 
survivors, it must be a priority for VA's entire leadership 
team to get it under control.
    I also want to mention that as part of an oversight role, 
the Committee often asks for information from VA about its 
operations; but in recent years we have run into long delays 
trying to get responses.
    In fact, this year VA has not responded to dozens of 
questions about its budget requests, inquiries about bills we 
considered back in June, and a request more than 6 months ago 
for the results of a survey of VA mental health providers.
    All of these issues are absolutely crucial, and the 
Committee's role and function is stymied when the agency will 
not provide those documents requested.
    So, I want to make it clear to the nominees today, if you 
are confirmed, you will be expected to provide the Committee 
with timely responses to our requests. This information is 
critical in helping us understand what is working well, what is 
not, and what changes may be needed to help improve the lives 
of veterans across the Nation.
    Mr. Chairman, I pledge with you to work with Mr. Gibson 
once he is nominated to not only solve the challenges of our 
requests but to solve the challenges and problems at the VA.
    I thank the Chair.
    Chairman Sanders. Thank you, Senator Burr.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and again it is 
good to have you here, Mr. Gibson. I apologize that we had a 
meeting scheduled and it did not work out. Hopefully, we will 
get that done within the near future. But we do appreciate your 
willingness to step in and be helpful.
    You have an excellent reputation and I know that I can 
speak for the entire Committee in a very bipartisan way--which 
this Committee is very much that way--that we will help you any 
way we can. On the other hand, in a very bipartisan way we are 
going to hold you accountable.
    As has been mentioned already, there are lots of 
challenges; and this is just so, so very important. So again, I 
think our commitment is about working together, all of us, you 
know. We actually can get some of these things solved and it is 
time to get some of these things solved.
    So again, we appreciate your willingness to serve and look 
forward to working with you in the future. Thank you.
    Chairman Sanders. Thank you, Senator Boozman.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Mr. Chairman and Senator Burr, 
for holding this hearing today.
    I want to begin by welcoming our nominees, Mr. Gibson, Ms. 
Tobias, and Dr. Schwartz as they prepare to testify and answer 
questions that this Committee may have.
    It is a great honor to serve veterans. I look forward to 
hearing from each of them about what they would do and what 
they would bring to the VA, if confirmed, to make it work as 
effectively as possible for our veterans.
    As we approach Veterans Day, we must remember the promise 
we made to our veterans: to care for them and their families, 
both during their service and, of course, after they return 
from war.
    George Washington once said, ``The willingness with which 
our young people are likely to serve in any war, no matter how 
justified, shall be directly proportional as to how they 
perceive veterans of earlier wars were treated and appreciated 
by their Nation.''
    So, it is no secret to anyone here that the way we as a 
nation honor and appreciate our veterans for their sacrifice is 
through ensuring that they are cared for by providing 
compensation for their wounds incurred during service both 
visible and invisible.
    It is my feeling that as long as we have veterans waiting 
more than 125 days on a claim for disability compensation, we 
have not fulfilled America's promise to our veterans.
    Nationwide over 400,000 veterans are stuck in the backlog. 
Nevada's VA regional office has 6,700 pending claims, more than 
4,200 of those which have waited longer than 125 days, which is 
VA's deadline for making a decision on a claim.
    So, even more for me as the Senator from Nevada, I note the 
VA offices in Reno, Las Vegas, and across the State have our 
veterans waiting 458 days on average to receive a decision on 
their claims. This is the longest waiting time in the Nation. 
For me and I think for all of us here, it is simply 
unacceptable.
    I bring this up because should you be confirmed, each 
nominee before the Committee today will have an opportunity to 
positively contribute to the reduction of backlog claims in VA.
    I realize there is no easy, permanent fix for the claims 
backlog, not obviously a single fix, but eliminating the 
backlog will require effective management from VA's leadership, 
a coordinated effort throughout the VA, and the assistance of 
legislators, veterans, and veterans service organizations.
    So, it is my hope that each of these nominees, as well as 
my colleagues on the Committee will bear this in mind when 
considering the responsibilities associated with each of these 
positions.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Heller.
    Mr. Gibson. I know that you have your family with you. If 
you would be so kind as to introduce them, we would appreciate 
that.
    Mr. Gibson. Thank you, Mr. Chairman. I am joined by my wife 
of 31 years Margaret, our older daughter Celia and her fiance, 
Michael Moran.
    I also have several friends here from the USO, Jennifer 
Giglio and John Hanson, in particular. John is a former 
Assistant Secretary at VA and both of them have really been 
essential to helping me prepare for this hearing.
    I think everyone would realize that I would not be able to 
take on the prospect of this kind of an assignment and 
responsibility without the support of a loving family, and I am 
very grateful for that support.
    Thank you, Mr. Chairman.
    Chairman Sanders. Well, we thank your family and friends 
for being with us on this important day.
    Mr. Gibson, under the rules of the Committee, the testimony 
of all Presidential nominees appearing before the Committee 
must be taken under oath. I would ask that you stand and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God.
    Mr. Gibson. I do swear.
    Chairman Sanders. Thank you. Please be seated.
    I suspect that Members will be in and out. It is a 
particularly busy day.
    Mr. Gibson, please make your statement.

  STATEMENT OF SLOAN D. GIBSON, MA, MPA, NOMINEE TO BE DEPUTY 
         SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Gibson. Thank you, Mr. Chairman, and I would also like 
to thank Senator Reed, even though he is no longer present.
    One of the great privileges of working at the USO these 
last 5 years is the opportunity to get to know and work closely 
with great public servants like Jack Reed.
    Chairman Sanders, Ranking Member Burr, distinguished 
Members of the Committee on Veterans' Affairs, thank you for 
this opportunity to seek your endorsement to become Deputy 
Secretary of Veterans Affairs.
    I have met with most of you. I have met with both of you 
individually and appreciate your strong support for veterans 
and for the mission of the Department of Veterans Affairs. I 
have listen carefully to your concerns and advice and have 
benefited from your counsel.
    I am honored by President Obama's nomination to serve as 
Deputy Secretary and I appreciate the confidence that both 
President Obama and Secretary Shinseki have shown in my ability 
to make a meaningful difference for veterans and their 
families.
    I am fully committed to the priority set forth by the 
President and the Secretary, and if confirmed, will do my 
utmost to ensure that they are achieved.
    I want to acknowledge the leadership of Secretary Shinseki, 
the hard work of many thousands of dedicated professionals at 
VA, and the unwavering support from the President and Congress, 
including this Committee.
    Remarkable progress has been made in improving veteran 
access to VA services, transforming the benefit claims process, 
reducing veteran homelessness, among many other areas.
    As a veteran and one who cares deeply about the welfare of 
our veterans and their families, I want to express my gratitude 
for the passion, the commitment, and sustained support all of 
you continue to provide.
    If confirmed, I will be proud to work alongside the men and 
women at VA as well as the Members of this Committee to deliver 
the very best possible support to America's veterans and their 
families.
    If confirmed, I would expect to serve as the chief 
operating officer, working under the Secretary's direction to 
manage day-to-day operations at the department.
    My business experience in both for-profit and not-for-
profit sectors provides a strong background for this role. The 
discipline and accountability of regularly meeting a bottom 
line and delivering results measured against the expectations 
of a range of stakeholders has built the skills and knowledge I 
would bring to discharging these responsibilities.
    In addition, I bring a passion for serving America's 
veterans and their families. Because of my close association 
with today's troops and families through my work at the USO, I 
believe that I have useful insights into meeting our needs.
    Through this work, I have also built close working 
relationships with senior Department of Defense leaders and 
believe that experience could be helpful as VA and DOD continue 
to collaborate to meet the needs of transitioning troops and 
their families.
    I also had the privilege of working with Members of 
Congress to support troops and military families. I understand 
the importance of these relationships and the need for regular 
dialog. If confirmed, I look forward to engaging with this and 
other Committees.
    Having led a non-profit organization supporting the 
military, I bring an understanding of how veterans service 
organizations and other nongovernment organizations can and do 
work collaboratively with government departments to accomplish 
more for those they serve. If confirmed, I would support VA's 
continued collaboration with these vital partners.
    I am especially proud of how the USO supported the changing 
needs of today's troops and military families. Our efforts on 
behalf of wounded and injured troops, their families and 
caregivers, and families of the fallen have been especially 
meaningful.
    We came to understand that healing is about more than what 
happens in an operating room or physical therapy room. It 
involves not just the wounded warrior but the entire family. 
USO's programs and facilities are designed to sustain hope and 
instill confidence in a happy and fulfilling future, to keep 
families together and to keep them strong, to build a plan for 
the future, either through continuing education or a new 
career, and to provide a support network in the event that 
progress falters.
    Much of this work is accomplished through collaborative 
relationships with best-in-class organizations, some of whom 
are represented in this room today.
    We establish clear goals and measurements to ensure that we 
are meeting the needs of troops and families and delivering on 
our promise. Service organizations, such as the one I have led 
the last 5 years, must be both effective at delivering 
measurable outcomes for those that it serves, as well as 
efficient in the use of resources.
    Trust is earned when these two objectives are consistently 
met, the trust of the people served as well as the trust of 
those who invest resources in the enterprise. VA exists to 
serve veterans and success is defined by veterans and measured 
in terms of individual veteran outcomes.
    If confirmed, I will work with the thousands of dedicated 
professionals at the VA to achieve continued success on these 
terms as well as to ensure that the VA continues to be the good 
steward of the precious resources entrusted to it. Our veterans 
deserve it, and you and the American people expect nothing 
less.
    I thank this Committee for its long history of unwavering 
bipartisan commitment to veterans. If confirmed, I look forward 
to working with you to fulfill that commitment.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gibson follows:]
 Prepared Statement of Sloan D. Gibson, Nominee for Deputy Secretary, 
                  U.S. Department of Veterans Affairs
    Chairman Sanders, Ranking Member Burr, and Distinguished Members of 
the Committee on Veterans' Affairs, Thank you for this opportunity to 
seek your endorsement to become Deputy Secretary of Veterans Affairs. I 
have met with many of you individually and appreciate your strong 
support for Veterans and for the mission of the Department of Veterans 
Affairs. I've listened carefully to your concerns and advice and have 
benefited from your counsel.
    I am honored by President Obama's nomination to serve as Deputy 
Secretary and I appreciate the confidence that both President Obama and 
Secretary Shinseki have shown in my ability to make a meaningful 
difference for Veterans and their families. I am fully committed to the 
priorities set forth by the President and the Secretary and, if 
confirmed, will do my utmost to ensure they are achieved.
    I want to acknowledge the leadership of Secretary Shinseki, the 
hard work of many thousands of dedicated professionals at VA, and the 
unwavering support from the President and Congress, including this 
Committee. Remarkable progress has been made in improving Veteran 
access to VA services, transforming the benefit claims process, and 
reducing Veteran homelessness, among many other areas. As a Veteran and 
one who cares deeply about the welfare of Veterans and their families, 
I want to express my gratitude for the passion, commitment, and 
sustained support all of you continue to provide. If confirmed, I will 
be proud to work alongside the men and women at VA as well as the 
Members of this Committee to deliver the very best support to America's 
Veterans and their families.
    If confirmed as Deputy Secretary, I would expect to serve as chief 
operating officer, working under the Secretary's direction to manage 
day-to-day operations of the Department. My business experience in both 
for-profit and not-for-profit sectors provides a strong background for 
this role. The discipline and accountability of regularly meeting a 
bottom line and delivering results that meet the expectations of a 
range of stakeholders has built the skills and knowledge I would bring 
to discharging these responsibilities.
    In addition, I bring a passion for serving America's Veterans and 
their families and because of my close association with today's troops 
and families through my work at the USO, I believe I have useful 
insights into meeting their needs. Through this work I have also built 
close working relationships with senior Department of Defense leaders 
and believe that experience could be helpful as VA and DOD continue to 
collaborate to meet the needs of transitioning troops and families. I 
have also had the privilege of working with Members of Congress to 
support troops and military families. I understand the importance of 
these relationships and the need for regular dialog. If confirmed, I 
look forward to participating in this process of engagement with this 
and other committees.
    Having led a non-profit organization supporting the military, I 
bring an understanding of how Veterans Service Organizations and other 
non-governmental organizations can and do work collaboratively with 
government departments to accomplish more for those they serve. As I 
know has been a priority for Secretary Shinseki, if confirmed, I would 
support VA's continued collaboration with these important partners.
    I'm especially proud of how the USO has supported the changing 
needs of today's troops and military families. Our efforts on behalf of 
wounded, ill and injured troops, their families and caregivers and 
families of the fallen have been especially meaningful. In particular, 
we came to understand that healing is about more than what happens in 
an operating room or a physical therapy facility and involves not just 
the wounded warrior but the entire family. USO's programs and 
facilities are designed to sustain hope and instill confidence in a 
happy and fulfilling future, keep families together and keep them 
strong, build a plan for the future either through continuing education 
or a new career, and provide a support network in the event progress 
falters. Much of this work is accomplished through collaborative 
relationships with best-in-class organizations allowing us to be both 
effective and efficient at meeting these objectives. We established 
clear goals and measurements to ensure we were meeting the needs of 
troops and families. Our focus on outcomes--not simply outputs--assured 
USO customers and donors that we were delivering on our promise.
    Service organizations, such as the one I have led the past five 
years, must be both effective at delivering measurable outcomes for 
those it serves as well as efficient in the use of resources. Trust is 
earned when these two objectives are consistently achieved--the trust 
of the people served as well as the trust of those who invest resources 
in the enterprise. VA exists to serve Veterans. I believe, and it is 
clear to me that the Secretary and VA senior leaders believe, VA's 
success is defined by Veterans and measured in terms of individual 
Veteran outcomes. If confirmed, I will work with the thousands of 
dedicated professionals at VA to achieve continued success on these 
terms as well as to insure that VA continues to be a good steward of 
the precious resources entrusted to it. Our Veterans deserve it and you 
and the American people expect nothing less.

    I thank this Committee for its long history of unwavering, 
bipartisan commitment to Veterans. If confirmed, I look forward to 
working with you to fulfill that commitment.
                                 ______
                                 
   Response to Prehearing Questions Hon. Bernard Sanders to Sloan D. 
  Gibson, Nominee to be Deputy Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1. Have you discussed with Secretary Shinseki the duties 
he would like you to perform, or the role he would like you to assume, 
as Deputy Secretary if you are confirmed?
    Response. Yes. The Secretary expects me, if confirmed, to serve as 
the Chief Operating Officer with responsibility for the day-to-day 
operation of the Department.

    Question 2. Will you have a policymaking role at VA independent of 
the Secretary?
    Response. No, unless tasked by the Secretary to address a specific 
issue. I would expect to support the Secretary's policymaking role by 
sharing my views during the policy development process and ensuring 
that policy decisions are communicated and implemented throughout VA.

    Question 3. Will you be VA's Chief Operating Officer? If so, please 
describe in detail what you understand the position of COO to be, both 
generally and with specificity as to VA.
    Response. Yes. The Secretary sets the broad direction and the 
strategic goals for the organization. If confirmed as Deputy Secretary, 
I would expect to be responsible for ensuring continued alignment of 
the organization with the Secretary's goals through participation in 
the Department's processes that establish subordinate goals and 
objectives, develop operating and financial plans to achieve the goals, 
ensure metrics are in place that accurately measure progress, monitor 
execution of the plans and performance against the goals, provide 
ongoing direction and needed course correction to ensure goals are met, 
and ensure the mechanisms for accountability are effective. I would 
also expect to actively facilitate collaboration both internally and 
externally. From the high level briefings I have received, I know 
former Deputy Secretary Gould and Chief of Staff Riojas have 
established a strong track record in these areas and if confirmed, I 
would look to continue their important work.

    Question 4. Apart from what you and the Secretary have discussed 
with respect to your duties, have you formulated any thoughts on what 
your specific responsibilities will be as Deputy and how you will 
approach them?
    Response. If confirmed, I will first want to ensure that I am the 
most effective Deputy to the Secretary I can possibly be. That will 
require a close working relationship with the Secretary and a clear 
understanding of his expectations day to day. While I bring particular 
skills and knowledge to VA, I recognize that with an organization as 
large and complex as VA, that I have much to learn, especially during 
my early days and weeks. Actively seeking input, at all levels of the 
organization, and carefully listening to our Veterans and those that 
are supporting them each day will be essential.

    Question 5. What is your motivation to seek this position?
    Response. I hope to make a positive difference for America's 
Veterans, their families and survivors.
    My father was a Veteran--a B-17 tail gunner in the European theater 
during World War II and later an officer in the Air Force. There was 
nothing of which he was more proud than his service to our country. My 
grandfather, a Veteran of World War I, was an infantry soldier in the 
3rd Division, wounded by machine gun fire at the Battle of the Marne, 
the same battle where today's 3rd Infantry Division earned its nickname 
``Rock of the Marne.'' Perhaps the proudest moment of his life was when 
he received the decorations to which he was entitled, including the 
Purple Heart, at the age of 92. I served in uniform and have had the 
privilege over the past five years of leading an organization that has 
transformed its support for America's Servicemembers and military 
families, especially for our wounded, ill, and injured Servicemembers, 
their families and caregivers and our families of the fallen. The 
opportunity to serve at VA, should I be confirmed, would be an 
extension of that work and I would bring the same passion to VA that 
has driven my work at the USO.

    Question 6. What do you see as the biggest challenges facing VA at 
this time--as to the Department as a whole, and specifically in VBA, 
VHA, and NCA?
    Response. For the Department as a whole, I believe the over-arching 
challenge is continuing the transformation already underway to become a 
21st Century organization--people-centric, results-driven, and forward-
looking. As it relates to VHA, VBA, and NCA, their top challenges are 
to continue to focus on achieving the aggressive and ambitious goals 
the Secretary has set forward to improve access, eliminate the claims 
backlog, and end Veteran homelessness.

    Question 7. What will be your top three priorities after assuming 
the role of Deputy Secretary?
    Response. If confirmed, my first order of business would be to 
learn more about the Department. Beyond that, I would expect to work 
closely with the Secretary, the Chief of Staff and other senior leaders 
within the Department to 1) improve access of Veterans to VA benefits 
and services, 2) eliminate the claims backlog, and 3) end Veteran 
homelessness.

    Question 8. What specific experiences from your prior professional 
positions do you believe have prepared you to manage VA?
    Response. My business experience in both for-profit and not-for-
profit sectors instilled the discipline and accountability that follows 
from regularly meeting a bottom line and delivering results that meet 
the expectations of a range of stakeholders.
    I bring a passion for serving America's Veterans and their 
families. Because of my prior service in uniform and my close 
association with today's Servicemembers and families through my work at 
the USO, I believe I have useful insights into meeting the needs of 
Veterans and their families. I have built close working relationships 
with senior Department of Defense leaders and believe that experience 
could be valuable as VA and DOD continue to collaborate to meet the 
needs of transitioning Servicemembers and their families. I have also 
worked with Members of Congress to support our Servicemembers and 
military families. I understand the importance of these relationships 
and the need for productive exchanges of information. Having led a non-
profit organization supporting the military, I also bring an 
understanding of how Veterans Service Organizations (VSOs) and other 
non-governmental organizations can best work collaboratively with 
government departments to accomplish more for those they serve.
    Service organizations, such as the USO, must be both effective at 
delivering measurable outcomes for those it serves as well as efficient 
in the use of resources. Trust is earned when these two objectives are 
consistently achieved--the trust of the people served as well as the 
trust of those who invest resources in the enterprise. I believe my 
organizational experience in the effective and efficient delivery of 
measurable outcomes would be directly relevant to VA.

    Question 9. If confirmed, what efforts will you undertake to make 
certain that VA is aware of, and responsive to, the needs of the 
veterans' community? Do you plan to meet regularly with veterans' 
organizations?
    Response. I believe it is vital for the senior leaders of any 
organization to actively and continuously seek input from those it 
serves, from front line staff, and from others that have strong vested 
interests in outcomes. I know that the Secretary also shares this 
commitment and during his tenure has regularly met with the leaders of 
national VSOs, speaks at VSO conventions and other meetings, and 
engages Veterans and VA's workforce in the field as he travels to VA 
facilities. Consistent with the Secretary's approach, if confirmed, I 
would expect to regularly spend time speaking directly with Veterans 
and their families, VA's employees, and, together with the Secretary, 
with the leaders of the many great VSOs that do so much to support 
Veterans and their families every day.

    Question 10. How would you, as Deputy Secretary, work with the 
Office of Inspector General? The Office of the General Counsel?
    Response. I look forward to working closely with the General 
Counsel's Office to ensure that VA actions comport with all applicable 
laws and regulations. I also appreciate the important role of the 
Office of Inspector General in oversight review to improve the economy, 
effectiveness and efficiency of VA programs, and to prevent and detect 
criminal activity, waste, abuse and fraud. I anticipate a candid and 
supportive relationship that serves the interests of Veterans and 
stakeholders. If confirmed, I look forward to meeting with the 
Inspector General and the General Counsel.

    Question 11. Are you more of a hands-on manager or do you tend to 
rely on significant delegation? Do you seek to achieve consensus with 
those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. Results are what matters. A good executive adapts his 
management style to the immediate situation at hand. My preferred style 
is to delegate and monitor progress. When an organization is staffed 
with strong leaders, they need the space to innovate and develop their 
own approach to delivering results against established goals. When 
expected results are not being delivered, a more hands-on approach is 
warranted.
    It is preferable to pursue consensus, seeking buy-in from those who 
will be charged with delivering results. There are occasions, such as 
times of crisis, where this may not always be feasible.

    Question 12. VA has long had the reputation of being a stovepipe 
organization. Please describe how you intend to work with the three 
Under Secretaries and with the various Assistant Secretaries to ensure 
that all components of the Administration and organizations are working 
together to achieve a ``One VA'' focus.
    Response. The transition to an integrated, collaborative 
organization, something I know is a priority to the Secretary, begins 
with a true customer focus as I believe is reflected in the 
Department's Strategic Plan. Metrics that gauge performance relevant to 
individual Veteran outcomes with clear lines of accountability that 
transcend organizational boundaries are essential. Some training, 
delegation, and certain forcing functions may be required. If 
confirmed, I look forward to working with the Secretary and other 
senior leaders on their ongoing efforts to strengthen VA capabilities 
through both internal and external collaboration.

    Question 13. Do you anticipate having a role in selecting other 
political appointees to VA? What are your views on the key 
qualifications for such individuals?
    Response. If confirmed, I would welcome the opportunity to provide 
input into the selection of political appointees. While strong 
leadership and management skills and a powerful intellect are 
essential, I would also place emphasis on passion for serving Veterans, 
the specific knowledge and skills immediately required in the position, 
and drive and determination to make a real difference.

    Question 14. As you might know, VA health care dollars are 
appropriated two years in advance. Do you support appropriating funds 
for two years rather than annually for the remainder of VA's 
appropriations--both mandatory and discretionary?
    Response. I am aware that VA has benefited from receiving advance 
appropriations for Medical Care programs. However, I would want to 
understand more about this issue before providing more detailed views 
on any expansion of the accounts included in advance appropriation.

    Question 15. Despite many efforts, there appear to be continued 
challenges in communicating effectively with returning OEF/OIF veterans 
on the availability of VA services and benefits. What do you believe VA 
can do to help ensure that transition from active duty is as seamless 
as possible and that returning Servicemembers know about what VA has to 
offer them?
    Response. I believe several noteworthy steps have already been 
taken to ensure returning Servicemembers are aware of VA benefits and 
services. The VA benefits briefings included in the now mandatory and 
enhanced Transition Assistance Program are clearly a step in the right 
direction. I'm also aware of the DOD requirement that all 
Servicemembers have access to the eBenefits portal. This would seem to 
be a great step forward in meeting the VA information needs of all 
Servicemembers, including OEF/OIF Veterans. Certainly, new media 
outreach, advertising and social networking also helps raise awareness. 
I believe it is also important for Veterans and the public to be aware 
of the positive experience Veterans have at VA every day and I know the 
Department is taking additional steps to share this important 
information. Perhaps the most powerful channel is word of mouth. For 
any service organization, customer satisfaction with the service 
experience determines what customers tell others.

    Question 16. VA must continue to make progress in improving the 
timeliness and quality of VA's claims adjudication process. What 
recommendations do you have to complement existing transformation 
efforts?
    Response. Our Veterans deserve timely, accurate, and fair 
resolution of their claims. That is the basis for the Secretary's 
priority to eliminate the claims backlog in 2015. I have received a 
very general briefing and read other publicly available materials 
summarizing the people, process, and technology transformation underway 
at VBA. I have also observed the recent trends in backlog reduction. If 
confirmed, I look forward to learning much more about this 
transformation, including having the opportunity to speak with Veterans 
with recent experience submitting claims, visiting Regional Offices to 
speak with those processing claims, and meeting with VSOs to better 
understand the vital role they are playing in this important work.

    Question 17. VA's Deputy Secretary currently serves as the Co-
Chairman of the VA/DOD Joint Executive Committee along with the Under 
Secretary of Defense for Personnel and Readiness. How would you view 
your role as Co-Chairman? What priorities would you bring to this 
position for improving the level of collaboration and cooperation 
between VA and DOD?
    Response. I believe the role of the Co-Chairman is to provide the 
leadership that sets the context for a strong collaborative 
relationship, and ensures the Joint Executive Committee is focused on 
the right issues and that plans are in place, including metrics and 
milestones, to resolve any issues. Where obstacles arise on joint VA/
DOD issues that cannot be resolved at the staff level, it is important 
that they be elevated to the co-chair level for resolution.
    I have worked closely and built strong relationships with senior 
DOD leaders over the past five years. I believe it is important to 
harness the shared concern for transitioning Servicemembers, Veterans, 
and their families and develop a clear understanding of DOD's 
perspective and priorities, and find ways to best serve transitioning 
Servicemembers and Veterans while also helping our collaborative 
partners achieve their desired outcomes.

    Question 18. What role do you believe the VA/DOD Joint Executive 
Committee could play in addressing the needs of survivors of military 
sexual trauma?
    Response. I am aware that the VA and the Administration more 
broadly have made the issue of military sexual trauma (MST) a top 
priority including ensuring the fairness of the disability claims 
process as it relates to MST claims. I am aware that the JEC serves as 
an oversight forum for transition issues, among the many other 
important VA/DOD issues. I believe it is important that transitioning 
Servicemembers are made aware of the wide range benefits and services 
available to them as they become Veterans, including those related to 
providing health care and benefits for those who have been the victims 
of military sexual trauma. If confirmed, I look forward to learning 
more about the VA and DOD's work in this area.

    Question 19. In 2012, over 62,600 veterans were homeless on any 
given night. If confirmed as Deputy Secretary, how would you ensure 
that VA's homeless veterans programs are running efficiently? What role 
would you envision for yourself with regard to interagency and public-
private efforts to end homelessness among veterans?
    Response. While the elimination of Veteran homelessness requires 
interagency and public-private collaboration, I believe VA bears the 
direct responsibility for this important initiative. As a point person 
for interagency collaboration, I believe the Deputy Secretary should 
serve as a champion for the Secretary's goal within government and with 
the community of potential external partner organizations. As with 
other initiatives, I believe monitoring the right Veteran-centered 
measurable outcomes and implementing continuous improvement processes 
are vital to success. If confirmed, this top priority of the Secretary 
would also be among my top priorities.

    Question 20. Over eight million veterans are enrolled in VA health 
care, over six million of which utilize the system. The size and scope 
of VA health care is the largest health care system in the country. 
However, often times, VA medical centers act like 152 separate 
corporations, rather than leveraging the benefits of being part of a 
system.

    a. What skills would you bring to VA to help implement a more 
systems-based approach to health care delivery?
    Response. I believe this is another opportunity for improved 
internal and external collaboration. While the size of VA's health care 
enterprise creates management challenges, it also offers extraordinary 
potential to leverage best in class practices across a large delivery 
system. As with any initiative to improve collaboration, it should 
include a focus on customer outcomes, relentless measurement, 
continuous improvement processes, and accountability for results. If 
confirmed, I look forward to working closely with the Under Secretary 
for Health to increase collaboration inside the organization as well as 
learn more about our efforts to seek collaborative relationships with 
other leading health care quality organizations and to learn from other 
best--in-class health care organizations.

    b. Specifically, how would you advise the Secretary on improvements 
to the existing contracting and staffing processes to ensure care can 
be delivered efficiently and effectively to the veterans who need it?
    Response. I strongly believe in the Secretary's efforts to continue 
to expand access to care for Veterans who have served this country. VA 
has taken significant steps to expand access both through the 
deployment of mobile health units and clinics and through the expansion 
of telehealth. In addition, when VA cannot provide the necessary care 
or when Veterans are not able to travel the distance from their home to 
the Medical Center, I understand that VA is able to purchase these 
services in the local community. If confirmed, I would want to learn 
more about these effort and other tools the agency is utilizing to 
ensure care can be delivered efficiently and effectively to Veterans.

    Question 21. Delivery of quality, effective, and timely mental 
health care remains a significant challenge to VA. While VA 
successfully completed the hiring of over 1,600 new mental health 
professionals, much work remains to be done.

    a. If confirmed, how do you intend to work with the Under Secretary 
for Health to address this problem?
    Response. Over the past five years, particularly as the USO 
expanded support for wounded, ill, and injured Servicemembers and their 
families, I have been asked from time to time what kept me awake at 
night. My answer has always been the challenge in meeting all the 
behavioral health needs of our Servicemembers and families, including 
those transitioning out of the military. Our Veterans deserve timely, 
effective, and compassionate mental health care. VA is responsible for 
providing this care and accountable for meeting appropriate standards. 
VA delivers quality mental health care through its system of medical 
centers, clinics, Vet Centers, and other points of care. It has been 
clear to me that mental health care has been a priority for the 
Secretary and the Administration as a whole and they have made 
significant strides in this area while recognizing more work remains.

    b. Where do you think opportunities for improvement exist?
    Response. Hiring the additional mental health professionals is a 
very positive step, and I would like to recognize the Committee for 
your focus on this issue over the last number of years. When I consider 
organizational process, I think in terms of ``inputs'' leading to 
``activities,'' which lead to ``outputs,'' ``outcomes,'' and finally 
``impact.'' In this context, the additional mental health professionals 
are a very important input. An informed view on opportunities for 
improvement would require much more in-depth knowledge of VA's entire 
approach to mental health care--from inputs through impact--than I have 
at this time. This would include learning more about VA's collaboration 
with other government agencies, non-profit organizations, the private 
sector, medical research institutions, and others. If confirmed, I 
assure the Committee that the issue of mental health care would be a 
priority for me.

    Question 22. What would be your priorities for improving the 
integration and use of information technology (IT) to improve the 
delivery of VA benefits and services?
    Response. My priorities would be on ensuring the continued 
transition to an integrated, collaborative organization based on a true 
customer focus; continuing the drive to improving access of Veterans to 
VA benefits and services, eliminating the claims backlog, and ending 
Veteran homelessness. Two examples of projects that I know are a 
priority for the Department that reflect the importance they have 
placed on leveraging IT tools in benefits delivery are the VA's 
paperless, electronic claims processing system, the Veterans Benefits 
Management System, and eBenefits, the DOD/VA web-based application for 
Servicemembers, Veterans, and their families to access information 
about benefits.

    Question 23. One of VA's major IT initiatives is modernizing VistA 
to support the VA/DOD integrated electronic health records program. 
What role would you see yourself playing in this effort and in broader 
efforts around data sharing and interoperable health care records?
    Response. As an outside observer of the VA's work in this area, I 
commend the Secretary for focusing on insuring our Veterans' health 
care is based on availability of a complete and comprehensive record of 
their treatment history. This includes data from our Department of 
Defense partners, as well as data from providers nationwide who also 
render care to our Veterans. If confirmed, my role as Deputy Secretary 
will be to support the Secretary and buildupon VA's successes in both 
expanding the types of data exchanged and the number of health care 
institutions participating in these exchanges.

    Question 24. VA is one of the largest property-holding Agencies in 
the government and has identified tens of billions in facility 
improvements that should be made to ensure that facilities are 
functional and safe. The Department has also faced project management 
challenges with major medical facility construction projects. What 
steps do you think VA can take to right size and upgrade its physical 
footprint in an effective way?
    Response. I am not yet sufficiently familiar with the capital asset 
portfolio to have well-informed opinions about right sizing and 
upgrading VA's physical plant. I recognize this is a significant 
challenge and opportunity for the Department and if confirmed, I would 
look forward to learning more about VA's long-term plan to ensure we 
have the safe and effective facilities needed to care for Veterans, now 
and long into the future.
    I am familiar with the recent GAO report addressing challenges with 
major medical facility construction projects and understand that the 
Department is taking action to implement each of the recommendations 
raised. If confirmed, I would look forward to learning more about the 
VA's efforts to access best in industry practices for construction of 
major medical facilities.

    Question 25. Acquisition is one area where VA can do more to find 
financial efficiencies, yet there seem to be challenges in terms of 
timeliness and decentralized execution of policies, along with other 
issues. If confirmed as Deputy Secretary, what would your priorities be 
for ensuring efficient acquisitions Department-wide?
    Response. While I have not been fully briefed on these 
opportunities, I believe this is an excellent example of the potential 
for improved internal collaboration. I am aware of VA's and the 
Administration's emphasis on strategic sourcing, and support this as 
one way to leverage the Department's and Federal spending and improve 
operational efficiencies. I am aware that as the Department has pursued 
this strategy they have focused on both the Secretary's commitment to 
supporting service-disabled and Veteran-owned businesses and ensuring 
them the opportunity to compete in fulfilling the requirements. If 
confirmed, I look forward to learning more about VA's work to leverage 
acquisition expertise and policy to achieve optimal efficiency and 
effectiveness throughout the Department.

    Question 26. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Deputy Secretary?
    Response. If confirmed, I will work with senior leaders in the 
Department so that the Committee is provided with information in an 
accurate and timely manner so as to perform its important oversight and 
legislative responsibilities.

    Question 27. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position of Deputy Secretary?
    Response. Yes.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Letters from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [A letter from the Designated Agency Ethics Official, U.S. 
Department of Veterans Affairs follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [A letter from Sloan D. Gibson to the Office of General 
Counsel, U.S. Department of Veterans Affairs follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Sanders. Thank you very much, Mr. Gibson.
    Let me begin by asking you a very simple question though it 
is an important question. I hope you will give a 
straightforward answer on it. In your judgment, very briefly, 
what is the VA doing today that they are doing very well and 
what are they doing today where we can see some significant 
improvements? So, I want your assessment of where we are today. 
In any institution as large as the VA, it is going to have its 
strengths. It is going to have its weaknesses. Please give me 
an honest assessment in your judgment.
    Mr. Gibson. Yes, sir. Thank you for the question, sir. I 
think day in and day out today the VA is delivering great care 
and support tens of thousands of times to veterans at VA 
medical centers, at community-based outpatient clinics, and 
through other means and channels.
    I think there are opportunities for the public to know more 
about all those great successes and the great work that VA is 
doing day in and day out which we talked about during our 
earlier visit.
    I think some of the most important work happening at VA 
today has to do with the transformation of VA to become a true 
21st century organization, and therein lies some of the great 
progress that is being made as well as some of the 
opportunities for continued improvement.
    So as the investments in people, process, and technology 
continue to be made, we see progress in the benefits claims 
backlog which, of course, is a very serious problem, a very 
serious issue; but it is also an area where more than 200,000 
claims in the backlog have been reduced over the last 8 months, 
really putting it on a great trajectory to meeting the 
Secretary's very important goal.
    So, I think continuing that transformation, continuing the 
investment in people, process, and technology; continuing to 
focus on individual veteran outcomes are the areas where the 
greatest opportunity exists.
    Chairman Sanders. And the weaknesses of the VA?
    Mr. Gibson. I think the weaknesses are the other side of 
the coin in the transformation effort. You alluded to and 
others have alluded to the claims backlog. I do not think 
anyone at VA considers the wait times that exist today as being 
acceptable, and so there is a very significant opportunity for 
continued improvement and I think a lot of the investments that 
are being made put us on the right track there.
    Chairman Sanders. Do you think that most veterans in this 
country know the benefits to which they are entitled? Has VA 
done as good a job as they should in reaching out and 
explaining to people what they are entitled to?
    Mr. Gibson. Mr. Chairman, I think a lot of good work has 
happened over the last several years. The public service 
announcement work that is under way right now, social 
networking, the Web site, the e-Benefits initiative where 
servicemembers are establishing accounts while they are still 
on active duty, the VA component of the new expanded required 
transition assistance program, I think all of these are steps 
in the right direction.
    But clearly more work needs to be done. There are still 
many veterans out there that do not know what services are 
available to them, so there is more work to be done in that 
area.
    Chairman Sanders. All right. Say a word on the very, very 
important issue of the relationship between VA and DOD, 
something that at least on this Committee we are very concerned 
about.
    Mr. Gibson. Mr. Chairman, you said something during your 
remarks that I would be very quick to echo. In many respects we 
are serving and supporting the same person. There may be some 
chronological difference about timing there but it is still the 
same person.
    The best possible service and support to those men and 
women in uniform, to those transitioning servicemembers, 
happens when we engineer the most seamless transition that we 
possibly can. I think that is what they deserve and I think 
that is what the American people expect. We have got work to do 
there. There have been great accomplishments, again, the e-
Benefits area and the transition assistance program.
    Some of the other areas, the IDES, or Integrated Disability 
Evaluation System work, some of the crisis line work in the 
mental health space, all of those are examples of where 
progress has been made, but there is more work to be done.
    Chairman Sanders. I suspect that it is possible that you 
may end up, if confirmed, being the point person for the VA 
dealing with DOD.
    Mr. Gibson. Yes, sir.
    Chairman Sanders. In terms of information technology, in 
terms of the whole issue of VistA, do you want to say a word on 
that, where you are coming from?
    Mr. Gibson. I think part of the opportunity in that 
collaborative relationship is for each of the two organizations 
to understand their mutual objectives and then find the common 
ground to achieve what needs to be achieved for the servicemen 
and women.
    I have gotten some briefings on the Joint Executive 
Committee. I would expect that to be a focal point for a lot of 
the interaction with DOD and the work on the integrated 
electronic health record, and I would look forward to wading 
into that space with vigor and pursuing those opportunities.
    Chairman Sanders. OK. Thank you.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Gibson, some housekeeping if I may. First off, I want 
to start with, as the Ranking Member part of my role is to 
conduct oversight with regard to VA activities. This often 
leads to myself or my staff requesting information, statistics, 
briefings, or other materials; but often we run into long and 
unacceptable delays in receiving that information.
    If confirmed, do you pledge to take steps to see that the 
long pending requests are finally met and that information is 
provided?
    Mr. Gibson. Senator Burr, I understand the importance of 
regular dialog and the importance of the right information to 
ensure that this Committee can exercise its oversight 
responsibilities, and I will work as closely as possible with 
the Secretary, with Assistant Secretary Mooney and with the 
other senior leaders to provide that information.
    Senator Burr. If confirmed, do you pledge to take steps to 
ensure that going forward my staff and I will be provided with 
the requested information in a timely fashion?
    Mr. Gibson. Senator Burr, we will do, I will do everything, 
if confirmed, possible to provide you with the information 
required in a timely fashion.
    Senator Burr. If confirmed, will you be proactive in 
alerting the Committee, including both sides of the aisle, to 
any significant issues involving the VA?
    Mr. Gibson. I am going to digress from the formulaic answer 
here, Senator Burr. I think in all of my experience with 
Members of Congress and frankly just in building relationships, 
I think understanding and having that kind of open dialog is 
vital to building trust; and I commit to you that I will do 
everything I can to build that foundation of trust.
    Senator Burr. As you can tell from the granularity of my 
questions, my level of trust is not real high right now.
    Mr. Gibson. Sir, we are going to work on that.
    Senator Burr. If confirmed, do you pledge to ensure that 
individuals are held accountable if they are impeding the flow 
of information to this Committee?
    Mr. Gibson. Yes, sir.
    Senator Burr. Mr. Sloan, do you believe VA is a visionary 
body?
    Mr. Gibson. Senator Burr, I think that--I am not sure 
exactly what I expected as I walked in and began my preparation 
for this hearing. Like everyone else, I read the newspaper and 
what I found, I was very pleased with.
    I think there is some visionary work that is happening 
inside VA. I point to the claims backlog as a good example of 
that. No one is happy with where things are right now. No one 
is satisfied. Where we are in terms of timeliness is not 
acceptable.
    But I think there is some exceptional work going on right 
now designed to permanently eradicate the claims backlog. The 
innovative work to integrate investments in people, process, 
and technology, I think, are exactly the right things to do.
    Now, I learned enough about that in the course of an hour 
and one-half in a conference room at 810 Vermont. If confirmed, 
I look forward to going out and talking with veterans who have 
recent claims experience, in talking with VSOs that are such an 
integral part of that process, to talking with front-line staff 
that are actually doing the work of processing claims day in 
and day out, because that is part of understanding whether or 
not that visionary work is really happening.
    So, I think there are clearly examples of where that is 
taking place. I think there are potentially other 
opportunities.
    Senator Burr. If you could choose one cultural change that 
you could make at VA, what would it be today?
    Mr. Gibson. Senator Burr, the honest answer is that I do 
not feel like I have the visibility into the internal operating 
environment to be able to say that.
    I do think that for any organization, any service 
organizations, and one of the lessons that I have learned is 
that a sense of urgency is a vital quality; that making crisp, 
timely decisions and then moving expeditiously but prudently to 
act, to take care of those that we serve is vitally important.
    So, from the outside looking in, I would offer that as 
conjecture but, if confirmed, I look forward to having the 
opportunity to understand more about the internal operating 
environment at VA and where we have opportunities to do even 
better.
    Senator Burr. When confirmed, that clock will start and I 
will assure you about 6 months later I am going to ask you both 
of these questions again.
    Mr. Gibson. OK, sir.
    Senator Burr. It is frustrating to the Committee that we 
seem to always be in crisis management mode. As we look out, 
just like you in your financial services career, could look out 
and see where the customers of the future were, we are looking 
at the veterans of the future. We know pretty closely how many 
are going to come out of active duty over the next 10 years.
    Mr. Gibson. Yes, sir.
    Senator Burr. And when we look at $60 billion worth of 
construction backlog, when we look at the backlog in disability 
claims, we do not look at it from a standpoint of today's 
numbers, we look at it from a standpoint of what is in front of 
us.
    I hope that you will be able to share with this Committee 
on an ongoing basis how Congress might be able to help, not 
just solve the problems of today at VA but to prepare for the 
customers of VA in the future.
    I look forward, Mr. Chairman, to an expedited process with 
Sloan Gibson.
    Chairman Sanders. Thank you very much, Senator Burr.
    Senator Blumenthal, do you have some questions?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Just a couple, mainly just to thank Mr. 
Gibson for his service to our Nation in uniform and also for 
your service in the private sector, dedicated to this cause and 
now as, hopefully, the confirmed Deputy at VA.
    You and I have talked a little bit about some of the issues 
that concern me, but I would just join the Ranking Member's 
view that we will be asking you these questions again and again 
as you come before the Committee, particularly as to both the 
cultural and the policy issues that need to be addressed.
    One area that has been a concern to me and a number of the 
organizations that represent our veterans concerns toxic 
chemicals, Agent Orange, and others that have been encountered 
by our troops serving abroad and at home. The Ranking Member 
has been a champion for some of our servicemembers who have 
suffered at Camp Lejeune and elsewhere.
    This issue really is a bipartisan one. I sponsored 
legislation dealing with it, and perhaps you can address that 
issue just briefly.
    Mr. Gibson. Yes, sir. In the broadest possible sense from 
the outside looking in, I see VA's role as trying to remove 
obstacles particularly that are service-connected to a veteran 
and a family experiencing a happy and fulfilling life.
    Certainly, exposure to toxic chemicals in the course of 
their service certainly falls into that category. I know the 
Secretary has taken courageous steps, particularly in the Agent 
Orange area and in some other areas to extend coverage, and I 
fully support that effort. I look forward, if confirmed, to 
being able to work closely with the Secretary and with other 
senior leaders in the Department to ensure that we meet those 
needs.
    Senator Blumenthal. Thank you. I am not going to duplicate 
some of the questioning that has gone on so far, but thank you, 
Mr. Chairman, for giving me this opportunity.
    Chairman Sanders. Mr. Gibson, thank you very much for your 
testimony. Thank you very much for your willingness to serve. 
We are going to try to move your nomination forward as quickly 
as we can. Thank you very much.
    Mr. Gibson. Thank you very much, Mr. Chairman.
    Chairman Sanders. If Linda Schwartz could now come up 
please and Ms. Tobias, as well.
    As we move to the second panel of nominees, I am pleased to 
turn to Senator Blumenthal to introduce Dr. Linda Schwartz the 
nominee for Assistant Secretary for Policy and Planning. 
Senator Blumenthal, please begin.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for giving me this opportunity to introduce to the Committee 
Linda Spoonster Schwartz, who serves currently as the 
Commissioner of the Department of Veterans Affairs in 
Connecticut.
    Let me just say I want to thank Commissioner Schwartz for 
her extraordinary service to our Nation and to the State of 
Connecticut in uniform and as a State official and now I am 
very confident as a member the VA team at the national level.
    Linda Schwartz and I have worked together closely on a 
number of issues. I have been honored to serve and work with 
her as attorney general and now as a Senator. So, I know her 
well and I cannot recommend her highly enough to be Assistant 
Secretary for Policy and Planning at the VA.
    She was appointed commissioner in 2003, reappointed twice, 
and she has worked, Mr. Chairman, for Governors of both 
parties. She is truly a bipartisan public servant and her life 
is deeply rooted in her work as a nurse, both in the Air Force 
and in the civilian world. She served our country for 16 years 
in the Air Force.
    She has worked on so many different issues that I hesitate 
even to name any of them because the breadth and scope of her 
commitment to our Nation's veterans is truly remarkable. To 
name a few, she has served on advisory committees to the 
Secretary of the VA, including committee on homeless veterans, 
readjustment for combat veterans, women veterans, and seriously 
mentally ill veterans.
    She was the first woman elected president of the National 
Association of State Directors of Veterans Affairs. I have 
worked with her on a number of issues including, for example, 
bringing together a national veterans organizations to hear the 
concerns and health issues of Vietnam-era veterans with Agent 
Orange-related illnesses. We also make sure that Connecticut 
veterans have been able to utilize their post-9/11 GI Federal 
and State benefits.
    On these and many other issues, what she has been, Mr. 
Chairman, is quite simply a tireless advocate, a relentless 
fighter for our veterans and a personal emissary to each and 
every one of them.
    She has a heart and a mind that is open to every single 
veteran no matter what their circumstances--whether they are 
homeless, or recovering addicts, or members of the boards of 
directors of Fortune 500 organizations--they are equal in her 
view.
    She deals with them all as individual human beings who have 
served our country and who deserve both the compassion and the 
benefits that they are entitled to receive. I am very, very 
confident she will serve in this position with distinction and 
recommend her as highly as possible to this Committee.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Blumenthal.
    Dr. Schwartz, thank you for your service to our country and 
your fellow veterans. I understand you have a guest or so in 
the audience that you would like to introduce.
    Ms. Schwartz. Yes, I would like to introduce Marsha Four. 
Marsha Four was an Army nurse in Vietnam. She is the recipient 
of a Bronze Star and she was just recently elected vice 
president of the Vietnam Veterans of America. We have worked in 
the trenches of the homeless, at stand-downs together, and I am 
very proud that she is with me today.
    I would also like to say that an unexpected visitor is 
Cheryl Sullivan, who is from the American Academy of Nursing; 
and many of my friends and people that I worked with over the 
years in the veterans service organizations are here to support 
me, and I thank them all for that.
    Chairman Sanders. And we welcome them. Thank you.
    Now, I would like to introduce Ms. Constance Tobias. 
Constance B. Tobias is currently Chair of the Departmental 
Appeals Board at the U.S. Department of Health and Human 
Services.
    Prior to her appointment in 2007, Ms. Tobias served as the 
Chief Veterans Law Judge for the Board of Veterans Appeals from 
1995 to 2007. From 1993 to 1995, she was counsel to the 
Chairman of the BVA. From 1991 to 1993, she was a staff 
attorney in the office of the General Counsel for VA. She began 
her career in 1983 as a staff attorney for the BVA.
    In 2007, Ms. Tobias received VA's Distinguished Career 
Award. She holds a BA from St. Augustine College, and a JD from 
Cornell University.
    Ms. Tobias, I know that you have some support here today in 
the audience. This is the time to welcome your guests.
    Ms. Tobias. Thank you, Mr. Chairman. I would like to 
introduce my husband, Gary Tobias, of 30 years and my son, 
Zachary Tobias. My mother, Shirley Black, and sisters, Tatiana 
Jones, Kanita Black, and Anita Wade; and my nieces, Jessica 
Mason and Olivia Wade. They made the trip from North Carolina 
to be here today and I am so happy they are here.
    Chairman Sanders. We are happy they are here as well and we 
welcome them.
    If both of you would be kind enough to stand.
    Under the rules of this Committee, the testimony of all 
Presidential nominees appearing before the Committee shall be 
taken under oath, and I would ask that both of you stand and 
raise your right hands please.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God.
    Ms. Schwartz. I do.
    Ms. Tobias. I do.
    Chairman Sanders. Thank you very much. Please be seated.
    Dr. Schwartz, we would be pleased to hear your testimony.

   STATEMENT OF LINDA S. SCHWARTZ, RN, MSN, DrPH, FAAN, USAF 
   (RET.), NOMINEE TO BE ASSISTANT SECRETARY FOR POLICY AND 
         PLANNING, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Schwartz. Thank you very much, Mr. Chairman, and thank 
you, Senator Blumenthal, for those very kind words.
    I am going to have to be very honest with you and tell you 
that even sitting here, the honor and pride that I feel that I 
have been nominated by President Obama for the position of 
Assistant Secretary for Policy and Planning is overwhelming.
    I am energized and enthusiastic about bringing and having 
the opportunity to serve on Secretary Shinseki's leadership 
team, especially now when so many activities and transformation 
of Veterans Affairs is occurring.
    I know that Senator Blumenthal has told you that I had been 
the commissioner for 10 years and I have served three 
Governors, but I think it is very important for you each to 
know that I also have used VA health care services and programs 
since I was medically retired from the U.S. Air Force in 1983 
after sustaining injuries in an aircraft accident while serving 
as an Air Force flight nurse.
    I became, I was actually in a position where after that, I 
was a Reservist, after that I was not able to get any service 
or help from anyone else but VA, and it was a long time before 
I actually found them.
    As I did, I became an advocate because I saw firsthand how 
hard it was for many veterans at the time to navigate a system 
that they did not fully understand.
    Even though I was quite ill, the nurse in me knew there 
were better methods and awareness of health care which could 
and should be implemented. Because my injuries were so severe, 
I was not able to continue using my hands on nursing, bedside 
nursing; and that was very difficult for me because it was a 
profession I loved.
    However, I was referred to the VA vocational rehabilitation 
program which gave me a great deal of support as I pursued a 
doctorate in public health from the Yale School of Medicine in 
New Haven, CT.
    Statistical data and research was a very important 
component of both my course of study and my advocacy. We often 
hear the mantra, ``speak truth to power,'' but I have learned 
that those words are empty unless you have the facts to support 
them.
    I understand well the vital mission VA's Office of Policy 
and Planning has in developing strategic plans and delivering 
unbiased program analysis and evaluations to provide reliable 
information so VA can make informed decisions.
    I am a firm believer in accountability: accountability to 
veterans, accountability to Congress, and accountability to the 
American people.
    As a researcher, I am a seeker of truth. I use data, 
science, and evidence-based research to guide my thinking and 
conclusions. However, as a nurse and a veteran, I believe that 
this information must also be tempered with the realities of 
providing services to veterans that are consistent with the 
delivery systems available in the 21st century.
    For VA to accomplish the core mission of serving our 
veterans, it is imperative that accountability, quality, and 
effectiveness continue to be a priority at every service level.
    Just as our military has changed, the needs of our veterans 
and their families have changed. In order to ensure that 
veterans across the Nation receive the very best VA has to 
offer, we must continue to challenge the status quo.
    Today's veterans and their families have a vast array of 
needs and concerns which can range from housing and 
transportation to childcare and short-term financial and 
employment issues.
    We need to build all on existing partnerships with Federal 
and State governments, our veterans service organizations, the 
private sector, communities, volunteers, and the faith-based 
communities. Partnerships are imperative to creating a quality 
continuum of care that all American veterans deserve and have 
earned. These partnerships help VA to address issues at the 
very local level where veterans live and work.
    The face of America's veteran population is changing 
dramatically, and the expectation of service delivery is much 
longer than those we have expected over the last 50 years. I 
believe that VA can keep pace with the expectations of the 
consumer base by continuing to refine and refresh and using 
creative initiatives and a broad range of problem solving for 
veterans of every generation.
    For the last 40 years, I have devoted my life and 
profession to caring for others as a practicing nurse, a 
researcher, and an advocate for veterans. Keeping faith with 
the men and women who have and are wearing the uniform has been 
one of the most fundamental and overriding purposes of my work 
and a guide star for my life journey.
    Challenging the status quo and assuring the continuing of 
services that are worthy of the veterans we serve, I intend to 
impact through leadership, collaboration, and a team approach.
    Thank you.
    [The prepared statement of Ms. Schwartz follows:]
  Prepared Statement of Hon. Linda Spoonster Schwartz, RN, MSN, DrPH, 
 FAAN, Nominee to be Assistant Secretary for Policy and Planning, U.S. 
                     Department of Veterans Affairs
    Good morning Chairman Sanders, Ranking Member Burr, distinguished 
Members of the Committee. Thank you for the opportunity to appear 
before you today. I am deeply honored that President Obama has 
nominated me for the position of Assistant Secretary for Policy and 
Planning at the Department of Veterans Affairs (VA). I am energized by 
the opportunity to serve as part of Secretary Shinseki's leadership 
team to continue to transform the Department of Veterans Affairs to 
meet the many challenges Veterans face in the 21st century.
    I currently serve as the Commissioner of Veteran Affairs for the 
State of Connecticut. I was first appointed Commissioner in 2003 and 
reappointed in 2007 and 2011, having the distinct honor of serving 
three Connecticut Governors. My life is deeply rooted in my profession 
as a nurse, my service in the United States Air Force and my advocacy 
for America's Veterans.
    I have used VA health care and benefits programs since I was 
medically retired from the U.S. Air Force in 1986 after sustaining 
injuries in an aircraft accident while serving as an Air Force Flight 
Nurse. At that time VA was the only care available to me because my 
husband, a self-employed Veteran, had no health coverage and the health 
plan provided by my employer would not cover the cost of care 
associated with injuries incurred in the line of military duty.
    I became an advocate because I saw firsthand how hard it was for 
many Veterans at the time to navigate a system they did not fully 
understand. Even though I was quite ill, the nurse in me knew there 
were better methods and avenues for health care which could, and 
should, have been implemented. Because my injuries were so severe, I 
was not able to continue practicing ``hands-on'' bedside nursing. This 
was very difficult to accept and seemed to be the end of my 
professional life. However, I was referred to the VA Vocational 
Rehabilitation Program which gave me a great deal of support as I 
pursued a Doctorate in Public Health at the Yale School of Medicine in 
New Haven, Connecticut. During my studies, I acquired new skills and 
tools to understand health care systems. Statistical data and research 
was a very important component to both my course of study and my 
advocacy. We often hear the mantra ``speak truth to power'' but I 
learned that words are empty if you don't have the facts to back them 
up. Thus my advocacy for Veterans has been both my vocation and my 
scholarly pursuit.
    I understand well the vital mission that the VA's Office for Policy 
and Planning (OPP) has in developing strategic plans; coordinating 
strategic resource allocation; producing verifiable data and predictive 
models; integrating business processes and programs; and delivering 
unbiased program analyses and evaluations to provide the reliable 
information needed to make informed decisions on VA programs and 
services. I am a firm believer in accountability: accountability to 
Veterans, accountability to Congress and accountability to the American 
people. As a researcher, I am a seeker of truth. I use data, science 
and evidence-based research to guide my thinking and conclusions. 
However, I believe that this information must also be tempered with the 
realities of providing services to Veterans that are consistent with 
delivery systems available in the 21st century. For VA to accomplish 
its core mission of serving our Veterans, it is imperative that 
accountability, quality, and effectiveness continue to be a priority at 
every service level. Housed within OPP are several ``business lines'' 
which are tasked with analysis and evaluation. I welcome the 
opportunity to review the activities of these offices to continue to 
improve the effectiveness and efficiency of VA's services and programs.
    The needs of today's Veterans and their families are growing. Just 
as our military has changed, the needs of our Veterans and their 
families have changed, and VA is transforming as an organization to 
meet them. In order to assure that Veterans across this Nation receive 
the very best VA has to offer, we must continue to challenge the status 
quo. Today's Veterans and their families have a vast array of needs and 
concerns which can range from housing and transportation to childcare 
and short-term financial and employment issues. We need to build on 
existing partnerships with Federal and State government agencies, our 
Veteran Service Organizations, the private-sector, communities, 
volunteers, and faith-based community. Partnerships are cost-effective 
and efficient utilization of existing resources is imperative to 
creating a quality continuum of care for all of America's Veterans. 
These partnerships help VA to address issues at the local level where 
Veterans live and work.
    I believe VA's interagency collaboration with the Department of 
Defense (DOD) must continue to be a major priority. These relationships 
are a vital foundation for serving Veterans now and in the future. 
Congress has authorized benefits and programs which are worthy of the 
sacrifices Veterans have made to win and sustain the freedoms we all 
enjoy. The dialog between VA and DOD remains a key element to how the 
Servicemember will receive those services and benefits. If confirmed, 
the interface with DOD will be one of my top priorities.
    The face of America's Veteran population is changing dramatically 
and the expectation for service delivery is no longer based on 
perceptions, traditions and accepted standards that were applicable 50 
years ago. I believe VA can keep pace with the expectations of its 
consumer base by continuing to create and nurture an atmosphere for new 
ideas and initiatives that meet the broad range of issues and problems 
facing Veterans of every generation.
    Upon entering his position, Secretary Shinseki set in motion an 
aggressive and ambitious transformation of VA. I am honored to be asked 
to assist in this continued effort of change to ensure Veterans now and 
in the future receive the respect, care and assistance they have earned 
and deserve. Veterans are in every town and city in this Nation; these 
are our friends, family members, and neighbors. Addressing the needs of 
Veterans is greatly influenced by where they live, economic conditions, 
access to transportation, and the care available in their immediate 
location.
    For the past 40 years, I have devoted my life and profession to 
caring for others as a practicing nurse, researcher and as an advocate 
for Veterans. ``Keeping faith'' with the men and women who have served 
and are serving in the military has been the fundamental and overriding 
purpose of my work and a ``guide star'' for my life journey. These 
experiences will be a positive addition to VA's leadership team. As one 
who remembers the evolution from the Veterans Administration to the 
U.S. Department of Veterans Affairs, I see that this is an opportune 
time to effect meaningful change. Challenging the status quo and 
assuring a continuum of services that are worthy of the Veterans we 
serve are what I intend to impact through leadership, collaboration and 
a team approach.

    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Bernard Sanders to 
 Linda S. Schwartz to be Assistant Secretary for Policy and Planning, 
                  U.S. Department of Veterans Affairs
    Question 1. For what reason do you seek this position?
    Response. I have used VA health care and benefits programs since I 
was medically retired from the military in 1986 after sustaining 
injuries in an aircraft accident while serving as an Air Force Flight 
Nurse. At that time VA was the only care available to me because my 
husband, a self-employed Veteran, had no health coverage and the health 
plan provided by my employer would not cover the cost of care 
associated with injuries incurred in the line of military duty. I 
became an advocate for Veterans because I saw firsthand how difficult 
it was for many of my fellow Veterans to navigate a system they did not 
fully understand. As one who remembers the evolution from the Veterans 
Administration to the U.S. Department of Veterans Affairs, I see that 
this is an opportune time to continue to effect meaningful changes. I 
have devoted my life to healing the wounds of war. Thus, I am deeply 
honored and energized by the opportunity to bring my experience, 
education and passion to a National level in the hope I will positively 
effect changes that will improve services and programs for America's 
Veterans and their families.

    Question 2. Please describe your management style and 
decisionmaking process.
    Response. There are many facets to my management style. Some say I 
am very ``hands on.'' If this means I take my responsibilities very 
seriously, that I do not make a decision until I have the information I 
need to address the issue and that I check facts presented to me, then 
I am ``hands on.'' Some say that I am a ``consensus builder.'' I do 
take into consideration the experience and expertise of my staff and 
advisors; however their involvement in decisions is also tempered by 
the fact that I retain the right to make the final decision if I am 
ultimately accountable for the end result. I am pragmatic enough to 
realize that there are times when decisions have to be evaluated in the 
light of new factors, realities, information or circumstances. I am not 
afraid to change a strategy or decision if it improves the quality or 
success of the initiative. As a researcher, I am also a seeker of 
truth. I am one who uses data, science and evidence-based research to 
guide my thinking and conclusions. I also believe a good manager works 
with staff to identify individual strengths and I strive to incorporate 
these qualities to enhance the collective efforts of my management 
team.

    Question 3. If we were to ask your prior subordinates about your 
management style, what would they say?
    Response. Those who have worked for me or with me would 
characterize my management style as creative but pragmatic. I look for 
solutions and often solicit the input of all my managers, even if they 
are not vested in the outcome. My process often begins with: ``How can 
we make this happen?'' or ``How can we achieve our goal?'' rather than 
dismiss a problem or a situation as insurmountable. I do challenge the 
status quo and encourage my staff to do the same. I use a team approach 
and pay close attention to the input of my staff especially if they 
will be directly involved with carrying out the decisions made. Most 
would say I am open to their suggestions even if they have a concern 
with a plan or strategy. I think of myself as a problem solver who uses 
data and information to focus on a task or goal. At the same time I am 
acutely aware of existing available resources and that decisions, 
solutions and strategies must be tempered with realities of cost-
effectiveness, timeliness and successful outcomes.

    Question 4. Have you discussed with Secretary Shinseki the duties 
and the role you would assume as Assistant Secretary for Policy and 
Planning if you are confirmed? If so, what specific areas of the job 
were discussed?
    Response. As Connecticut Commissioner of Veterans' Affairs and 
President of the National Association of State Directors of Veterans' 
Affairs, I have had the honor to work with Secretary Shinseki at VA. 
Secretary Shinseki has made it clear to all of us that he is determined 
to effect an aggressive and ambitious transformation of the Department. 
I know that the Office of Policy and Planning plays a pivotal role in 
this transformation. I share his vision and will do all that I can to 
assist him and the Department in achieving this goal.

    Question 5. Have you formulated any thoughts on what your new job 
responsibilities would be and how you would approach those 
responsibilities if confirmed?
    Response. I understand well the vital mission that VA's Office for 
Policy and Planning (OPP) has in developing strategies; coordinating 
resource allocation; producing verifiable data and predictive models; 
integrating business processes and programs; and delivering unbiased 
program analyses and evaluations to provide the reliable information 
needed to make informed decisions on VA programs and services. I am a 
firm believer in accountability: accountability to Veterans, 
accountability to Congress, and accountability to the American people. 
For VA to accomplish its core mission of serving our Veterans, it is 
imperative that accountability, quality, and effectiveness continue to 
be a priority at every service level. Housed within OPP are several 
``business lines'' which are tasked with analysis and evaluation. I 
welcome the opportunity to support the activities of these offices and 
continue to improve the effectiveness and efficiency of VA's services 
and programs.

    Question 6. What do you believe are the most significant challenges 
currently confronting the Department? Which of these challenges will 
you focus on and how do you intend to address them through your role as 
Assistant Secretary for Policy and Planning? How would you measure your 
success?
    Response. If confirmed, there are many aspects of the position of 
Assistant Secretary for Policy and Planning that offer opportunities 
for meaningful and sustainable improvements in the lives of America's 
Veterans. With the challenges of today's Veterans, multiple 
deployments, reliance on the ``Citizen Soldiers'' of the National Guard 
and Reserve, I cannot think of a more important time in history to be 
serving Veterans. For the past 40 years, I have devoted my life and 
profession to caring for others as a practicing nurse, researcher and 
as an advocate for Veterans. Keeping faith with the men and women who 
have served and are serving in the military has been the fundamental 
and overriding purpose of my work and a ``guide star'' for my life 
journey. I am acutely aware that the Veterans returning home now are 
different than the Veterans of my father's World War II generation and 
my own Vietnam generation. While they are not encumbered with 
validating the legitimacy of Post-Traumatic Stress, they have brought 
the issue of Traumatic Brain Injury and its consequences to the 
forefront. The needs of today's Veterans and their families are growing 
and changing. Just as our military has changed, the needs of our 
Veterans and their families have changed. Secretary Shinseki and his 
leadership team have made great strides to ensure assure VA is making 
adjustments and remains on course to identify and address these 
demands. In order to ensure that Veterans across this Nation receive 
the very best VA has to offer, we must continue to challenge the status 
quo. Today's Veterans and their families have a vast array of needs and 
concerns that can range from housing and transportation to childcare 
and short-term financial and employment issues. I hope that VA will 
continue to build on existing partnerships with Federal and State 
government agencies, Veteran Service
    Organizations, the private-sector, communities, volunteers, and the 
faith-based community. I would also like VA to explore the development 
of stronger, creative and more diverse partnerships with State 
Governments, which have systems and infrastructures that can enhance 
and enrich America's capacity to care for Veterans. Partnerships at the 
local level with oversight are cost-effective, efficient and effective 
approaches for augmenting existing VA resources to create a quality 
continuum of care to address issues at the grassroots level where 
Veterans live and work.

    Question 7. If confirmed, how would you oversee certain management 
activities and processes that require coordination across the 
Department?
    Response. If confirmed, I look forward to working with my 
counterparts within VA to support the strategy outlined by Secretary 
Shinseki and VA's core mission of serving America's Veterans. I am a 
firm believer in collaboration and coordination of resources and 
personnel to create a continuum of programs and services that are 
easily accessible and will meet the needs of Veterans. At the hub of 
this activity is the interaction and communication between 
policymakers, implementers, service delivery personnel and ultimately 
and most importantly, the Veteran. At the same time, the efficiency of 
any process must also be evaluated and refined. VA, although a large 
system, has a core mission of caring for Veterans which can and should 
transcend bureaucratic barriers, roadblocks or indifference. Support 
for the core mission and accountability for achieving the goals this 
work requires, must be an integral part of the individual and 
collective efforts of all tasked with management activities, services 
and programs.

    Question 8. What do think your role will be in VA budget 
formulation?
    Response. While responsibility for VA budget formulation resides 
with VA's Office of Management, the Office of Policy and Planning makes 
an important contribution to this process by developing the 
Department's strategic plan. OPP is also responsible for the multi-year 
programming effort that will help make sure that the budget request is 
aligned with the priorities identified in the strategic plan. OPP makes 
other important contributions to the budget development process through 
oversight and evaluation of existing programs. Additionally, OPP 
contributes to budget deliberations by creating and maintaining VA's 
Veteran population models and through its actuarial analysis 
capabilities, OPP provides necessary data required to make accurate 
cost and workload projections. If confirmed, I will work to make sure 
that OPP is providing the best available data and evaluations for 
consideration for the budget formulation process for the entire 
department.

    Question 9. There has been significant effort to improve the level 
of collaboration and cooperation between VA and DOD. What do you 
believe would be your role in dealing with areas of concern involving 
the two Departments? What recommendations do you have for improving the 
level of collaboration and cooperation between the Departments?
    Response. I believe VA's interagency collaboration with the 
Department of Defense (DOD) must continue to be a major priority and 
the Office of Policy and Planning has responsibility for overseeing 
that relationship for the Secretary. I have served over 10 years as 
Commissioner of Connecticut's Department of Veterans' Affairs. The 
seamless transition promised to our troops returning today has improved 
in those years but the process needs more work to avoid unnecessary red 
tape, delays in service and ambiguities that can block services from 
being delivered. The relationship between DOD and VA remains a key 
element on how the military member and Veteran will receive those 
services and benefits. This relationship is a vital foundation for 
serving Veterans now and in the future. If confirmed, the interface 
with DOD will be one of my top priorities.

    Question 10. There has been significant effort to transform VA into 
a high-performing 21st century organization. What do you see as the 
greatest challenges in this transformation and how can the Office of 
Policy and Planning assist VA in completing this transformation?
    Response. The face of America's Veteran population is changing 
dramatically and the expectations for service delivery are no longer 
based on perceptions, traditions and accepted standards that were 
applicable 50 years ago. VA must keep pace with the expectations of its 
consumer base and the American public's desire to care for Veterans. 
Life in the 21st century presents challenges of timeliness, 
accessibility and response time that in the past have not been 
standards for VA operations. While Secretary Shinseki and all of VA has 
begun this transformation, there is need to continue this journey of 
change to assure Veterans now and in the future receive the respect, 
care and assistance they have earned and deserve. Anticipating needs, 
identifying trends, using data to forecast utilization of resources and 
evaluation of existing programs are within the purview of the Office of 
Policy and Planning; if confirmed I will use these tools to assist and 
inform the decisionmaking process at VA.

    Question 11. More specifically, VA has undertaken a significant 
effort to transform its compensation claims system. In testimony before 
the Senate Committee on Veterans' Affairs on March 13, 2013, GAO noted 
in its testimony (GAO-13-453T) that VA's claims transformation efforts 
need to be ``driven by a robust, comprehensive plan.'' The testimony 
then went on to describe a review of documents in GAO's work that 
failed to meet criteria for sound planning. Since GAO's review, VA has 
published a written strategic plan titled ``Department of Veterans 
Affairs (VA) Strategic Plan to Eliminate the Compensation Claims 
Backlog, January 25, 2013.'' Would you consider this the robust, 
comprehensive plan necessary to drive VA's compensation claims system 
transformation efforts? Are the strategic benchmarks set forth by VA 
illustrative of feasible and sound goals that can be adequately 
measured?
    Response. As Commissioner of Veterans' Affairs for the State of 
Connecticut and a Veteran who has used VA services for many years, I 
can say that the responsiveness of VA to the claims backlog is by far 
the best it has ever been. For a system that began over 60 years ago, 
the acknowledgement that the process is too long was a major milestone. 
President Obama, Secretary Shinseki and Congress have been at the 
forefront of addressing a problem that has existed in this agency for 
decades. In the past two years more attention, innovation, evaluation 
and retooling has been invested in the timeliness and accuracy of 
claims processing than has ever been dedicated to this vital program in 
the past. For the first time in history there are ``goals'' for the 
processing of these claims. There is no doubt that the efforts have 
been robust and comprehensive. However, I will look for ways to 
continue to strengthen the process. In particular, I look forward to 
working with State and County VSOs and Veterans on this subject. State 
and County Veteran Service Officers as well as the cadre of Service 
Officers affiliated with the Congressionally Chartered Veteran Service 
Organizations are the backbone of this process. From the local level, I 
have been impressed with Under Secretary Hickey's engagement of the 
Veteran Service Officer community, responsiveness to suggestions and 
implementation of corrective actions to improve this process. I look 
forward to working with the VA leadership to support the progress that 
has been made and address the challenges that remain to assure that the 
claims process is timely, appropriate and effective.

    Question 12. In your experience what steps can a large department 
take in order to be prepared to respond to unforeseen developments 
during a large scale transformation?
    Response. Transition, change and innovation, especially in an 
agency as large as VA, requires oversight, evaluation and assessment of 
outcomes that are unbiased and frequent. One of the most difficult 
challenges is cultivating a staff dedicated to the success of the 
transformation. Key to this success is communication and an open, 
honest and non-judgmental dialog with staff and stakeholders to assure 
that ``unforeseen developments'' are identified early and corrective 
actions are initiated immediately. Additionally, familiarity with the 
system and available resources that can be brought to bear to address 
the unforeseen developments will greatly enhance the response time and 
streamline the adjustments that may need to be made. Leadership can 
determine the objectives and strategy, however implementing the changes 
and the success of the transformation process hinges on those tasked 
with actually incorporating and sustaining meaningful changes.

    Question 13. How can the Office of Policy and Planning better 
support continual enhancement of policies, programs, benefits and 
services to Veterans?
    Response. I am aware that the Office of Policy and Planning has 
many tools and assigned duties that can support and improve the 
spectrum of programs and services VA provides to Veterans and their 
families. Data collection, trend analysis, oversight and evaluation are 
all valuable resources that can enhance and enrich the capacity of VA 
leadership to make quality informed decisions. Statistical data 
analysis and research has always been an integral part of my studies 
and advocacy. I am one who believes that ``speaking truth to power'' 
also creates an inherent responsibility to have solid information and 
data to support a premise for change. However, I am also mindful that 
VA needs be responsive to the expectations of life in the 21st century 
and must also look to the private sector for concepts, innovations and 
consultation that will help keep VA better serve Veterans now and in 
the future.

    Question 14. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. I look forward to working closely with the Committee and 
appearing before the Committee to discuss matters that are important to 
our Veterans.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Letters from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [A letter from the Designated Agency Ethics Official, U.S. 
Department of Veterans Affairs follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Letters from Linda S. Schwartz to the Office of General 
Counsel, U.S. Department of Veterans Affairs follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Sanders. Thank you very much.
    Ms. Tobias, we would be very pleased to hear from you.

 STATEMENT OF CONSTANCE B. TOBIAS, JD, NOMINEE TO BE CHAIRMAN, 
 BOARD OF VETERANS APPEALS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Tobias. Chairman Sanders, Ranking Member Burr, 
distinguished Members of the Committee, good morning and thank 
you for the opportunity to appear before you today. I ask that 
my written testimony be entered into the record.
    I am honored that President Obama has nominated me to serve 
as Chairman of the Board of Veterans' Appeals. Most of my 
career as an attorney and a judge has been dedicated to the 
mission of repaying the debt of honor owed to our brave men and 
women in uniform.
    I am eager for the opportunity to redouble those efforts as 
part of a leadership team working to transform the Department 
of Veterans Affairs in order to meet the emerging challenges of 
the 21st century.
    My long-standing commitment to serving veterans arose in 
part from the guidance, love, and support of my family. In 
particular, I want to remember and recognize my father and his 
two brothers whose dedication and service to this country 
continue to inspire me.
    I would also like to thank my family and friends for their 
presence and support as well as all of my coworkers who took 
time to share this important day with me.
    Let me also recognize the long career of Stephen Keller, 
who recently retired from the board, for his many years of 
Federal service. I knew and served with Mr. Keller and with 
three prior board chairmen. It would be an honor for me to 
follow in their footsteps and to lead more than 600 dedicated, 
hard-working, and professional employees of the board.
    Finally, I want to recognize the essential role that the 
various veterans service organizations play at the Board of 
Veterans' Appeals.
    These organizations offer invaluable insights and serve as 
partners in much of the work conducted at the board. If 
confirmed, I look forward to working with them.
    I know well the critical challenges facing the board in the 
coming years to ensure fair, timely, and accurate results in an 
appeals process that issued more than 41,000 decisions last 
year.
    I first came to VA in 1983, and my passion for serving our 
veterans did not fade during my more than 20 years there 
serving as an attorney advisor, a staff attorney with the 
Office of General Counsel, counsel to the board chairman, 
Veterans Law Judge and Chief Veterans Law Judge.
    During my tenure at the board, I actively participated in 
initiatives designed to speed claim processing, increase 
decision output, and eliminate the backlog of pending cases.
    My appointment 6 years ago as Chairman of the Departmental 
Appeals Board at the U.S. Department of Health and Human 
Services allowed me to develop leadership methods that led to 
dramatic improvements in both quality and productivity.
    The Departmental Appeals Board itself resolves disputed 
decisions in a wide range of HHS programs with outside parties 
such as State agencies, universities, nursing homes, and health 
care providers and suppliers.
    During my term, the Departmental Appeals Board has made 
extraordinary progress in eliminating a backlog of appeals in 
two divisions and significantly reduced the backlog in a third 
by focusing on employee performance, reengineering its 
operations, and improving its case management techniques.
    My previous work at the board and my previous experience at 
HHS have equipped me to bring a unique perspective to the 
board's ongoing efforts to streamline operations, provide 
timely, clear, and accurate decisions and continue robust 
coordination with the Veterans Benefits Administration, a key 
partner in the appeals effort.
    When our veterans come to us with questions about 
disability claims, medical care, or other benefit 
determinations, they need to have ready access to the appeals 
process, streamlined handling of their claims, and answers that 
are correct and understandable. We owe them that. In the 21st 
century, veterans expect real-time information on the status of 
their appeals.
    As we all know, appeal numbers are expected to grow 
dramatically over the coming years. To provide veterans what 
they deserve in the face of growing needs will demand 
innovative and nimble solutions taking full advantage of the 
efficiencies of technology and the tremendous potential of all 
the board's strong judges and staff.
    If confirmed as Chairman of the Board of Veterans' Appeals, 
I am committed to working with this Committee, the Congress 
more broadly, veteran service organizations, the Court of 
Appeals for Veterans Claims, other stakeholders, and most 
importantly all the wonderful employees at the board to ensure 
that we provide timely and high quality decisions to America's 
heroes.
    I am also committed to working closely with the Veterans 
Benefits Administration and other VA partners to improve the 
overall claims and appeals system for the benefits of the 
veterans we serve.
    Should I be confirmed, I will serve with passion and 
conviction as an advocate on behalf of all of America's 
veterans.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering any question you may have.
    [The prepared statement of Ms. Tobias follows:]
 Prepared Statement of Constance B. Tobias, Nominee to be Chairman of 
  the Board of Veterans' Appeals, U.S. Department of Veterans Affairs
    Chairman Sanders, Ranking Member Burr, distinguished Members of the 
Committee: good morning and thank you for the opportunity to appear 
before you today. I am honored that President Obama has nominated me to 
serve as Chairman of the Board of Veterans' Appeals (Board). Much of my 
career as an attorney and a judge has been dedicated to the mission of 
repaying the debt of honor owed to the men and women who have worn our 
Nation's uniform. I am eager for the opportunity to redouble those 
efforts as part of the leadership team working to transform the 
Department of Veterans Affairs (VA) to meet the emerging challenges of 
the 21st century.
    My longstanding commitment to serving Veterans arose in part from 
the guidance, love, and support of my family. In particular, I want to 
remember and recognize my father and his two brothers whose dedication 
and service to this country continue to inspire me. As a family, we 
have learned firsthand how crucial the benefits provided to Veterans by 
a grateful country can truly be for them and their families. For 
example, our family home was obtained with the help of the VA loan 
guaranty program and my uncles received high quality and compassionate 
care at the VA Medical Center in Salisbury, North Carolina. I am 
excited about this opportunity to give back by adding my passion, 
dedication and leadership to continuing the enhancement of the VA's 
appeals so that it provides timely decisions to Veterans who seek our 
services.
    I would like to thank my family and friends for their steadfast 
support, as well as all of my co-workers who have helped me along the 
way. I would also like to recognize the long career of Steven Keller, 
who recently retired from the Board, for his many years of Federal 
service. I knew and served with Mr. Keller and with three prior Board 
Chairmen. It would be an honor for me to follow in their footsteps and 
to lead the more than 600 dedicated, hard-working, and professional 
employees of the Board. Finally, I want to recognize the essential role 
that the various Veterans Service Organizations play at the Board of 
Veterans Appeals. These organizations offer invaluable insights and 
serve as partners in much of the work conducted at the Board and, if 
confirmed, I look forward to working with them.
    I know well the critical challenges facing the Board in the coming 
years to ensure fair, timely and accurate results in an appeal process 
that issued more than 41,000 decisions last year. I first came to VA in 
1983, and my passion for serving our Veterans did not fade during my 
more than 20 years there. I wrote thousands of draft decisions as 
attorney-advisor and became a staff attorney with the Office of General 
Counsel working with the Department of Justice on some of the first 
appeals from the U. S. Court of Veterans Claims to the U. S. Court of 
Appeals for the Federal Circuit. I then served as counsel to the Board 
Chairman, directing the professional activities of the Litigation 
Support Division, addressing the impact of court decisions on VA 
regulations and Board operations, and guiding litigation strategies for 
pending appeals. I focused especially on reducing administrative 
processing time of appeals remanded to the Board by the court. After I 
became a judge at the Board, I conducted hundreds of hearings and 
decided thousands of appeals. That role gave me the privilege of 
listening as our Nation's Veterans shared their stories of service and 
courage and made me appreciate the critical role the Board plays in 
many of their lives.
    From 1995 to 2007, I took on a leadership role as Chief Veterans' 
Law Judge. In that role, I mentored judges and helped them to develop 
skills to increase productivity and work effectively with attorney 
staff. I also helped improve the quality of written decisions and 
managed efficient case distribution. It was my responsibility to ensure 
that cases were reassigned as necessary and that every judge and 
attorney could meet or exceed numerical performance goals in order to 
ensure the timely review of appeals.
    During my tenure at the Board, I actively participated in 
initiatives designed to speed claims processing, increase decision 
output and eliminate the backlog of pending cases. I provided executive 
leadership to the development of the attorney telework program now in 
place at the Board. I also founded the Board of Veterans' Appeals 
Leadership Initiative to provide unique opportunities for employees at 
all levels, at my agency and throughout VA, to develop the leadership 
skills necessary for advancement. VA employees benefited from guidance 
contributed by a wide range of leader-models, including VA Assistant 
Secretaries, judges, law school deans and professors, as well as state 
and Federal elected officials. As a result, the agency saw increases in 
dedication and workplace performance by the participants.
    My appointment six years ago as Chairman of the Departmental 
Appeals Board (DAB) at the U.S. Department of Health and Human Services 
(HHS) allowed me to develop leadership methods that led to dramatic 
improvements in both quality and productivity. DAB itself resolves 
disputed decisions in a wide range of HHS programs with outside parties 
such as state agencies, universities, nursing homes, and health care 
providers. In a single year, disputes heard by DAB may involve as much 
as $1 billion in Federal grant funds. DAB also houses the Medicare 
Appeals Council, the final level of administrative review for claims 
denials and overpayments in the Medicare program nationwide.
    During my term, DAB has made extraordinary progress in eliminating 
a backlog of appeals in two divisions and significantly reducing the 
backlog in a third by improving employee performance, re-engineering 
its operations and improving its case management techniques. Over the 
last several years, DAB launched an electronic case filing system, 
called DAB E-File, permitting parties to file documents electronically 
and reducing the paperwork and time required to process cases. Together 
with DAB's internal case management system, DAB E-File has proven to be 
an efficient means of managing DAB's case load, reducing administrative 
costs and space requirements. DAB has also worked actively with the 
Office of Medicare Hearings and Appeals and the Center for Medicare and 
Medicaid Services to bring electronic case files to the Medicare 
workload.
    I have also focused significant energy in my work at DAB in fully 
integrating video-teleconferencing (VTC) into the work of judges in all 
of the operating divisions with the result that, in FY 2013, no judges 
at DAB had to travel to conduct hearings. Not only were agency funds 
saved, but the time of judges and staff was better used and parties 
benefited from more flexibility and reduced costs. We further leveraged 
the equipment to provide mediation services in DAB cases and HHS 
workplace disputes as well as free or low-cost educational 
opportunities to our staff through webinars and online training. I have 
also emphasized clear writing in plain English in all DAB decisions. I 
see strong parallels in the work with which I have been engaged at DAB 
and the efforts that are currently underway at the Board.
    My previous work at the Board and my recent experience at HHS have 
equipped me to bring a unique perspective to the Board's ongoing 
efforts to streamline operations, provide timely, clear and accurate 
decisions, and continue robust coordination with the Veterans Benefits 
Administration--a key partner in the appeals effort. When our Veterans 
come to us with questions about disability claims, medical care or 
other benefit determinations, they need to have ready access to the 
appeals process, streamlined handling of their claims and answers that 
are correct and understandable. We owe them that. And in the 21st 
century, Veterans expect real-time information on the status of their 
appeals. As we all know, appeal numbers are expected to grow 
dramatically over the coming years. To provide Veterans what they 
deserve in the face of growing needs will demand innovative and nimble 
solutions taking full advantage of the efficiencies of technologies and 
the tremendous potential of all of the Board's strong judges and staff.
    My vision centers on using the funds made available to the Board to 
those two ends. My number one priority, if confirmed, must be to hire 
and train the strongest possible front line staff to review and decide 
Veterans' appeals. The second goal is to leverage opportunities 
provided by technology to the maximum possible extent, including to:

    <bullet> coordinate workloads and assignments;
    <bullet> improve and expand existing automation,
    <bullet> develop effective adjudication/decisionmaking tools; and
    <bullet> expand VTC for hearings and staff development.

    If I return to the Board to carry out this vision, I will look for 
every opportunity to streamline and modernize management and re-
engineer work flow to best serve today's Veterans.
    In summary, I am thrilled at the prospect of leading a 21st century 
Board of Veterans' Appeals, not daunted. With this nomination, I 
consider myself one of the luckiest people in the world because I value 
the chance to better serve those who have served us all.
    If confirmed as Chairman of the Board of Veterans' Appeals, I am 
committed to working with this Committee, the Congress more broadly, 
Veterans Service Organizations, the Court of Appeals for Veterans 
Claims, other stakeholders, and most importantly all of the wonderful 
employees at the Board to ensure that we provide timely and high-
quality decisions to America's heroes. I am also committed to working 
closely and collaboratively with the Veterans Benefits Administration 
and other VA partners to improve the overall claims and appeals system 
for the benefit of the Veterans we serve. Should I be confirmed, I will 
serve with passion and conviction as an advocate on behalf of all of 
America's Veterans.

    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Bernard Sanders to 
    Constance B. Tobias, Nominee to be Chairman, Board of Veterans' 
              Appeals, U.S. Department of Veterans Affairs
    Question 1. For what reason do you seek this position?
    Response. I seek this position to fulfill a personal commitment of 
service to our Nation and its Veterans. The commitment was born from 
two sources: first, my family's experiences in the military and as 
recipients of veteran's benefits and second, my own years of serving as 
an attorney, a judge and a leader at the Board of Veterans' Appeals. 
Hearing our Veterans tell of their service, their courage, their pain 
and their needs is what drives me to reach out for the challenge of 
meeting those needs and honoring that service. I believe that I would 
bring deep technical understanding of the issues and seasoned 
leadership skills to this position. From my current work at the U.S. 
Department of Health and Human Services' Departmental Appeals Board, I 
have the experience of re-engineering workflow, re-energizing staff, 
and deploying the best technological solutions to confront high-volume 
Medicare appeals. My long familiarity with the dedicated VA employees 
and the complex systems at work in the Veterans appeals context will 
allow me to effectively apply the lessons of that experience to bring 
the results that our Veterans deserve.

    Question 2. Please describe your management style and 
decisionmaking process.
    Response. As a manager, I seek to build a strong and effective 
leadership team committed to improving quality and productivity. I seek 
to be innovative and hands-on as a supervisor. I hold myself and those 
who work for me accountable for results, and I have a deep commitment 
to the professional growth of each employee. Before reaching a 
decision, I solicit input from the leadership team and, to the extent 
practicable, external stakeholders, encouraging dissenting views. I 
also attempt to be open to feedback and willing to change my approach 
based on new information and discussions with those I supervise.

    Question 3. If we were to ask your prior subordinates about your 
management style, what would they say?
    Response. I believe those who have worked with me have found me 
decisive and innovative in seeking creative solutions to longstanding 
problems. They would likely say that I welcome input but accept 
ultimate responsibility, and that I believe in accountability for 
myself and those around me, but treat everyone with respect. They know 
that I invest in growing people so they can invest in producing 
results.

    Question 4. Have you discussed with Secretary Shinseki the duties 
and the role you would assume as Chairman of the Board of Veterans' 
Appeals if you are confirmed? If so, what specific areas of the job 
were discussed?
    Response. Secretary Shinseki has expressed to me his strong 
commitment to transform the Department to meet the challenges of the 
21st century so that we may continue to repay the debt of honor owed to 
the men and women, and their families who have ``borne the battle.'' 
The Secretary places a high priority on ensuring that the Board will be 
able to meet the challenges associated with an anticipated rise in the 
number of appeals precipitated by the Veterans Benefits 
Administration's success in reducing the claims backlog. If confirmed, 
I will have Secretary Shinseki's full support as I focus on the people, 
processes and technologies that will allow the Board to meet these 
challenges.

    Question 5. What do you believe are the most significant challenges 
currently confronting the Board of Veterans' Appeals? Which of these 
challenges will you focus on and how do you intend to address them?
    Response. I strongly support the priorities that Secretary Shinseki 
has established in the Department of Veterans Affairs Strategic Plan 
Refresh FY 2011-2015 and agree with what it outlines for the Board of 
Veterans' Appeals, the Veterans Benefits Administration and all of VA 
to ``transform the Department to meet the emerging challenges of the 
21st century as we continue to repay the debt owed to the men and 
women, and their families, who have borne the battle.'' It is my view, 
that the number one issue facing the Board of Veterans' Appeals is the 
continuing challenges associated with the claims and appeals backlog. 
Increases in the number and complexity of appeals require sustained 
focus on workforce training, business process improvements, and 
integration of appropriate technology.

    Question 6. According to VA's Fiscal Year 2014 budget request, 
Veterans Service Organizations (VSO) represent 79.6 percent of 
appellants before the Board of Veterans' Appeals. Given the significant 
role that VSO's play in representing appellants before the Board of 
Veterans' Appeals, how do you plan to work with the Veterans service 
organizations?
    Response. If confirmed, I plan to work closely and collaboratively 
with Veterans Service Organizations (VSO). If confirmed, I anticipate 
building on the existing efforts the Board of Veterans' Appeals has 
taken to involve these knowledgeable and highly experienced 
organizations early in developing initiatives to improve the appeals 
process and other areas. I look forward to building relationships with 
VSOs to serve Veterans, their families and survivors.

    Question 7. A portion of the Board of Veterans' Appeals workforce 
is part of a bargaining unit. What experience do you have working with 
labor partners and how would you approach this relationship with the 
Board of Veterans' Appeals labor partners should you be confirmed?
    Response. A large percentage of my workforce at the Department of 
Health and Human Services' (HHS) Departmental Appeals Board (DAB) is 
also part of a bargaining unit. I am committed to fulfilling our labor 
management responsibilities. Two DAB employees, one of whom is the 
President of the bargaining unit, spend a portion of their available 
duty time performing representational activities. The President of the 
bargaining unit and I meet at least monthly to touch base or discuss 
concerns. My contacts with HHS' labor partners have always been 
professional and cordial and, if confirmed, I would adopt a similar 
approach to working with the VA's labor partners.

    Question 8. A significant portion of VA's claims transformation 
plan focuses on a paperless benefits system. Do you have experience 
working within or implementing a paperless benefits, claims, or 
appellate system?
    Response. The Department of Health and Human Services' Departmental 
Appeals Board (DAB) is an organization which consists of Board Members 
appointed by the Secretary, Administrative Law Judges, Administrative 
Appeals Judges who serve on the Medicare Appeals Council, and 
organizational divisions that support the judges and other 
organizational functions. Under my leadership, the DAB launched DAB E-
File, its electronic case filing system for the Board Members and 
Administrative Law Judges. The system allows parties to file documents 
electronically and is linked to the DAB's internal case management 
system. DAB currently accepts electronic filings in cases involving: 
(1) Medicare provider and supplier enrollment denial, effective date, 
and revocation determinations by the Centers for Medicare and Medicaid 
Services, (2) fraud and abuse determinations to exclude providers and 
suppliers from participation in Medicare, Medicaid, and all Federal 
health care programs by the HHS Office of Inspector General, (3) the 
Early Retiree Reinsurance Program, (4) Food and Drug Administration 
tobacco product cases and (5) Determinations in mandatory grant 
programs, including disallowances of state claims. DAB E-File has 
proven to be an efficient means of managing the DAB's case load, 
reducing administrative handling and decreasing space required to store 
files.

    Question 9. What role do you envision for the Board of Veterans' 
Appeals in using technology to aid in the timeliness and accuracy of 
appeals?
    Response. If confirmed, I would seek technological advances that 
offer Veterans easy access to information about their appeals and, in 
an effort to improve timeliness and avoid remands, the capability to 
electronically submit evidence directly to the Board. I am eager to 
learn more about the tools and job aids developed by the Veterans 
Benefits Administration to determine whether these tools might be able 
to be leveraged to improve accuracy at the Board.

    Question 10. How long do you think a veteran should have to wait 
for an accurate decision on an appeal? What ideas do you have to 
improve the timeliness of appeals decisions?
    Response. The length of time that an appeal takes to be completed 
depends on a several different factors, including the number and 
complexity of conditions being reviewed. In my view, it is essential 
that we provide Veterans with quick and accurate final decisions. I 
look forward to working with leadership at the Board to leverage 
technology and reorganize business practices to improve the timeliness 
of decisions.

    Question 11. In your opinion, is the Department's Fiscal Year 2014 
budget request, which anticipates supporting 492 FTE, sufficient to 
support workload requirements at the Board of Veterans' Appeals?
    Response. If confirmed, I look forward to working with Department 
leadership, Congress, and other VA stakeholders to assess current needs 
and maximize efficiencies in resources to address the predicted rise in 
appeals.

    Question 12. What is your vision for employee training at the Board 
of Veterans' Appeals? What ideas do you have to improve the accuracy of 
appeals decisions?
    Response. These questions belong together because the best way to 
improve the accuracy of appeals decisions is to enhance the skill set 
and knowledge base of those who produce the decisions. If confirmed, I 
would ensure that Board of Veterans' Appeals training programs offer 
training activities appropriate to employees' diverse needs at every 
level. My primary focus would be on the large number of incoming 
attorneys. Rather than disperse them throughout the organization, 
forcing judges and staff attorneys to train them ``on the fly,'' while 
managing full dockets, I would form a trainee corps led by judges 
specializing in attorney development with selected senior attorneys as 
coaches to quickly and effectively inculcate a consistent level of 
subject matter expertise and excellent case management skills. Next, I 
would develop systematic in-service training programs for existing 
attorneys to upgrade skills, encourage career development, and develop 
our next generation of leaders and judges. To enhance judicial 
management and cultivate outstanding decisionmaking, I would partner 
with the National Judicial College to bring our judges all the tools 
they need. Finally, those who perform administrative and technical 
functions need opportunities to learn about the fast-changing 
technological environment and master new ways of doing business.

    Question 13. Chapter 71 of title 38 of the United States Code 
provides the statutory authority for and framework within which the 
Board of Veterans' Appeals operates. Do you believe the statutory 
framework governing VA's administrative appellate process is conducive 
to producing timely and accurate decisions? What recommendations, if 
any, do you have for Congress to improve the statutory framework?
    Response. Based on my experience as an attorney, a judge and a 
leader at the Board of Veterans' Appeals, I believe that the current 
statutory framework governing VA's administrative appellate process is 
conducive to producing timely and accurate decisions. I am aware that 
the VA has proposed legislation that would improve the statutory 
framework by redefining the term ``reasons and bases,'' reducing the 
time period for filing a notice of disagreement following the issuance 
of a rating decision and permitting the Board to determine the most 
expeditious type of hearing to afford Veterans. I am confident that 
these proposals will enhance efforts to improve timeliness and accuracy 
in decisionmaking.

    Question 14. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. If confirmed, I agree to appear before the Committee at 
such times and concerning such matters as the Committee might request.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [A letter from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [A letter from Constance B. Tobias to the Office of General 
Counsel, U.S. Department of Veterans Affairs follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Sanders. Thank very much, Ms. Tobias.
    Let me start with Dr. Schwartz. Let me ask you the same 
question that I asked the previous panel and that is, we have a 
good health care system I think. You yourself experienced it. 
Mr. Gibson pointed out earlier and I think you have made the 
point that VA's population and its challenges are changing 
every day. That is one of the unique characteristics of VA, 
there is certainly not a static population that it deals with.
    One of the crises that we face right now, and it is a huge 
challenge, is that a whole lot of men and women who come back 
from Iraq and Afghanistan come back with Traumatic Brain 
Injury. They have come back with Post Traumatic Stress 
Disorder, which we are talking about tens and tens and tens of 
thousands of people.
    In your judgment, how is VA doing in responding to that 
very, very difficult challenge? What ideas do you have as to 
how they might improve their efforts?
    Ms. Schwartz. I believe that VA has made important strides 
in the last few years to accommodate especially some of the 
things that we are finding out on the battlefield injuries.
    The Traumatic Brain Injury has always been part of military 
service. We are just now acknowledging it and addressing how to 
treat the people who are coming home with this.
    From the Stateside--I am from the ones that deliver the 
service, so I truly believe that States bring a lot of 
resources to the table. Collectively, States spend $9 billion a 
year to assist veterans across the Nation.
    That is a vehicle that needs to be, those bridges need to 
be cultivated and enforced just because, just as we are relying 
so much on our citizen soldiers, the Guard and the Reserve, 
they are no longer on large bases and they no longer stay in 
the military health care facilities for long periods of time.
    They come home and they come to small towns and large 
towns, and one of the things is that the accountability for the 
care of veterans is just as sharp at the State level as it is 
at the national level.
    So, I would look forward to, as I mentioned in my 
testimony, working with other government agencies, our veterans 
service organizations, and communities to craft a network that 
actually can identify and address these people.
    Chairman Sanders. Let me ask you another question. This 
Committee has talked a lot about the need for much better 
efforts between VA and the DOD in terms of electronic medical 
records.
    Do you have any thoughts on that?
    Ms. Schwartz. Yes, sir, I do. I too, was someone who was 
watching this. We are all disappointed that it did not 
materialize as we had expected.
    But I do believe that Secretary Shinseki's leadership on 
this and the concept of this seamless medical record is 
definitely worth revisiting and taking a look at why did it 
fail.
    I am not really sure I know the reason why it failed but I 
am vitally interested in seeing what happened and how we can 
make it work because it is the answer.
    I myself--it took 3 years from the time of my accident 
before I even went for care at the VA. I live in a very rural 
part of Connecticut. My husband is self-employed. I had a 6-
year-old daughter. That is happening over and over and over 
again across our great Nation today.
    It is the pro forma and not the exception that it was in my 
time. But the point is, I was medically retired from the U.S. 
Air Force and the VA had no idea of who I was or where I was 
and I had no idea where VA was.
    So, that medical record system is vital not only for the 
veterans today but for the services that we can provide for the 
future people who come to serve our Nation.
    Chairman Sanders. So, am I hearing that if confirmed----
    Ms. Schwartz. Yes.
    Chairman Sanders [continuing]. You are going to be vigorous 
in trying to improve what is now a rather poor situation.
    Ms. Schwartz. Yes, sir, I consider it to be the very top 
priority. I have met with my staff and they have had some 
wonderful ideas. But I promise you that this is a very vital 
interest of my own, not only for my people----
    Chairman Sanders. You are taking it personally?
    Ms. Schwartz. Actually, sir, I think that is probably what 
Senator Blumenthal was trying to tell you.
    [Laughter.]
    Chairman Sanders. Well, that is why we needed Senator 
Blumenthal with that introduction.
    Senator Blumenthal.
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman.
    You have summarized in two or three words what I was trying 
to do in 5 minutes but thank you again, both of you, for your 
service to our Nation.
    I think I want to second what the Chairman raised about the 
necessity for a truly interoperable and seamless system of 
electronic medical records. I think that has to be a priority 
for you, for Mr. Gibson, for the entire VA leadership. But I 
also want to raise two other issues.
    One, a general one, which you have raised, and I want to 
suggest to both of you speaking truth to power is important in 
the Federal Government just as it is in the State government. I 
know from your record you have never been hesitant about 
speaking truth to power and I assume that you would continue to 
do so, both of you, in the roles that you are going to now 
have.
    Speaking truth to power, of course, means being a critic 
where necessary and your freedom to do so publicly may be 
somewhat constrained but I hope that you would speak truth to 
power within the halls of the VA and publicly, if necessary. I 
assume you would do so.
    Ms. Schwartz. If I am confirmed, you know that is one of my 
mantras and that I do believe that it is an opportune time at 
VA right now because of the leadership of Secretary Shinseki.
    So, I look forward to being a force to improve the system 
and also I hope that I will bring the viewpoint of the States 
to the discussions and the halls of VA because many of our 
State directors do wonderful work and they are willing 
partners.
    Senator Blumenthal. I would agree with you as a former 
State official that the States are really pioneering and 
spearheading some of the most innovative and important work in 
this area.
    Ms. Tobias, do you have any comment on the general issue of 
speaking truth or more specifically how we are going to deal 
with the backlog of appeals we have?
    Ms. Tobias. Well, speaking truth to power certainly has 
never been a problem for me. I think that it is important that 
we have all views, dissenting views, as we move forward to 
tackle some of the more difficult issues facing us.
    As far as the backlog, I view the claims and appeals 
backlog as an integrated benefits system to our veterans. We 
really cannot separate claims from appeals. It is a complex 
challenge, and there is no single solution to that problem. I 
think that it will take focus on what you have already heard 
today: people, processes, and technologies.
    I have had some success at HHS in focusing on training 
people, bringing in differing views, bringing in people with 
different experiences to help us look at our work differently, 
to working very hard at looking at our practices, our workflow, 
how we manage our work but also what technology can bring to 
our work.
    We have been working on an electronic record, and I think 
there is huge potential in VA to gain some efficiencies there 
helping with timeliness but also administrative processing and 
handling and space storage.
    So, I think that it is a combination of ideas that will be 
necessary to address the backlog and I look forward to diving 
right in, if confirmed.
    Senator Blumenthal. Thank you. Mr. Chairman, I am going to 
close with just a couple of comments because I have to go back 
to a Judiciary Committee hearing.
    Your mention of Traumatic Brain Injury and the related 
issue of Post Traumatic Stress are very important in my view, 
that both the Department of Defense and the VA give the 
priority to these issues they deserve.
    The State of Connecticut was involved recently with a 
veteran of the Vietnam war, John Shepard, Jr., who was 
discharged with a less than honorable discharge, suffered from 
homelessness and unemployment for four decades as a result.
    His case was championed by the Yale Legal Services Clinic. 
I know you are familiar with the case, and I was very 
supportive and involved in it.
    Fortunately, just within the past week his less than 
honorable discharge was changed by the U.S. Army to an 
honorable discharge; a tremendous victory for him but also 
hopefully as a precedent for revisiting some of the discharges 
and some of the policies that were set before this Nation 
recognized Post Traumatic Stress and diagnosed and treated it. 
It was not recognized until the 1980s.
    So, many of the veterans of the Vietnam era may have 
suffered from it and we need to redress that injustice and 
misfortune for them and for our Nation because they can and 
could have done even more with their lives if they had been 
given the right diagnosis and treatment at the time that it was 
relevant.
    So, I am hoping----
    Chairman Sanders. You raise an issue that this Committee is 
going to look at. That is a complicated issue but it is a very 
important issue and the point that the Senator is making, there 
were a lot of people who were discharged, received their 
dishonorable discharge or less than honorable discharge for 
reasons that I think we understand better today than we did 
then.
    Then what happens to these people and what kind of care 
they are able to get because they do not have that honorable 
discharge is a serious issue.
    Thanks for raising it.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Chairman Sanders. Ms. Tobias, let me just ask you a 
question or two. You are being nominated for a very difficult 
job. If confirmed, you will assume one of the toughest jobs at 
the VA.
    I cannot underscore enough the level of frustration 
veterans have with VA's disability claims system and especially 
the amount of time it takes to receive a decision on an appeal.
    Will you commit, on the record, to providing this Committee 
with a plan within your first 45 days on the job on how you 
intend to cut the amount of time it takes to give a veteran a 
correct answer on an appeal? Is that something you can commit 
to?
    Ms. Tobias. Well, I certainly will try. I will commit to 
that.
    Chairman Sanders. We are asking you for the plan.
    Ms. Tobias. The plan.
    Chairman Sanders. Not to solve all the problems by that 
time. Just the plan on how you are going to go forward.
    [Laughter.]
    Ms. Tobias. All right.
    Chairman Sanders. Ms. Tobias, if confirmed, I would like to 
know how you will approach employee relations, for example, a 
significant number of board employees are members of a 
bargaining unit. How would you solicit input from your 
employees and union representatives?
    Ms. Tobias. I have had experience working with employees in 
a bargaining unit. Most employees at the Departmental Appeals 
Board are part of a bargaining unit.
    My approach is open. The current bargaining unit president 
and I meet regularly and informally in the halls. I believe 
that our employees, it is important that our employees feel 
that they are being treated fairly in the workplace, that they 
are being treated with respect in the workplace, and that when 
the relationship is good, then we can all focus on the job of 
serving veterans, reducing the processing time, trying to issue 
as many decisions as we can. So, I am looking forward to, if 
confirmed, an open, cooperative process. That has been my 
experience at HHS.
    Chairman Sanders. OK. All right. Those are my questions.
    Let me thank Sloan Gibson, Dr. Schwartz, and Ms. Tobias for 
being with us today and for answering our questions. Most 
importantly, I thank all of you for your desire to serve our 
Nation's veterans and for the work that you have already done 
for our country.
    The importance of these nominations cannot be stressed 
enough. All of these jobs are enormously important. The 
positions you have been selected to undertake play an integral 
role in approving the benefits and services that we provide 
those who put their lives on the line to defend our country.
    I look forward to working with Ranking Member Burr and 
other Members of this Committee on the disposition of your 
nominations. Thank you again for being here. This hearing is 
now adjourned.
    [Whereon, at 11:13 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Statement of Richard Reed, NSO, Veteran Service Director, 
   Vermont Office of Veterans Affairs in support of Linda S. Schwartz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Letter from Catherine L. Gillis, PhD, RN, FAAN, Dean and Helene Fuld 
Health Trust Professor of Nursing, Vice Chancellor for Nursing Affairs, 
   Duke University School of Nursing in support of Linda S. Schwartz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Letter from Tri-Council for Nursing in support of Linda S. Schwartz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
